<html>
<title> - STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR FISCAL YEAR 2020</title>
<body><pre>[Senate Hearing 116-]
[From the U.S. Government Publishing Office]


 
  STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                            FISCAL YEAR 2020

                              ----------                              


                        TUESDAY, APRIL 30, 2019

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 2:45 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Lindsey Graham (Chairman) 
presiding.
    Present: Senators Graham, Moran, Lankford, Leahy, Shaheen, 
Coons, Merkley, Murphy, and Van Hollen.

           UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT

              OPENING STATEMENT OF SENATOR LINDSEY GRAHAM

    Senator Graham. The hearing will come to order.
    Today, we are going to be hearing from United States Agency 
for International Development Administrator Mark Green about 
the President's fiscal year 2020 budget request. Very briefly, 
Mark you are doing a great job. You understand the agency. To 
all the people under your command, they are doing a great job 
in very difficult circumstances. I do not know if I speak for 
every Member of the subcommittee, but I think I certainly speak 
for myself, and most of us, we are not going to approve this 
budget reduction. It is insane. It makes no sense. It makes us 
less safe, and I do not know who writes these things over at 
the White House, but they clearly do not understand the value 
of soft power. If you are going to win this war, you better be 
on the ground and you better have something to offer other than 
the terrorists, which is a hopeful life versus a glorious 
death.
    So, I am confident this subcommittee will restore the 23 
percent cut below the fiscal year 2019 enacted level. And 
again, to me, from the administration's point of view, this is 
a very short-sighted approach to the problems we have in the 
world and if you do not have some developmental aid available 
to you, you better really build a military a lot bigger than it 
is today because that is the only option left to you.
    Senator Leahy.

                 STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. Mr. Chairman, I just want you to know that 
the Chairman and I are together on that.
    I think General Mattis has said it best when he said, if 
you cut the foreign aid budget, buy me more bullets. And that 
is not directed at you, Mr. Green. We have known you a long 
time and I know are here because you have to defend the 
administration's budget.
    One of things that Senator Graham and I have done, and 
before him Senator McConnell and I, is to get this bill passed 
out of our committee with strong bipartisan support because 
USAID and our soft power should not be a partisan issue. It 
should be an American issue and we are going to try and keep it 
that way.
    Thank you.

    [The statement follows:]
             Prepared Statement of Senator Patrick J. Leahy
    Administrator Green, welcome back.
    In many ways I feel like we are picking up where we left off when 
you testified before this subcommittee a year ago.
    The fiscal year 2018 and 2019 budget requests for USAID proposed 
cuts in virtually every program funded by this subcommittee, and those 
cuts were overwhelmingly rejected by the Congress. They would have 
eroded decades of progress against poverty, disease, and despair around 
the world.
    Yet here we are again, presented with a budget filled with feel-
good language about self-reliance and U.S. interests, that would 
significantly undercut U.S. global leadership at a time when other 
countries, particularly China, are looking for opportunities to assert 
themselves as we withdraw.
    Here is just one example: The fiscal year 2019 Omnibus included 
$8.8 billion for global health programs. For fiscal year 2020 the 
President requests $6.3 billion, a cut of $2.5 billion--not million, 
billion--which is even $360 million below the fiscal year 2019 budget 
request.
    How can we justify that, knowing the countless lives that could be 
saved if we just provide the same amount as last year? And knowing the 
threat that contagious diseases pose for millions of Americans 
traveling, studying, and working overseas. And knowing that a deadly 
virus is just a plane ride away, as we saw with Ebola. A single case in 
Texas caused near panic in this country.
    There are many other ways that U.S. interests would be compromised, 
and how U.S. leadership would be undermined, by this budget request. 
Anyone who travels overseas, as most of us do, can see what China and 
Russia are doing to extend their influence. I and eight other Senators 
got an earful from U.S. military commanders in Alaska and Hawaii just 
last week.
    We see the pressures our allies and partners are under due to armed 
conflict, climate change, poverty, and migration.
    We can either continue to be a leader, or withdraw and let others 
assume that role. I cannot understand a budget request that so starkly 
threatens what we, and those who came before us, have achieved.
    I know your job is to defend the President's budget. I don't envy 
you, especially knowing, as I do, how deeply you care about USAID and 
its mission--as do we all. But we need to hear not just the raw numbers 
or meaningless comparisons to the fiscal year 2019 budget request--
which was rejected--but what it would mean for USAID's operations and 
programs if this budget were to become law--something, I suspect, you 
would prefer not to contemplate.

    Senator Graham. Thank you. Mr. Green, the floor is yours.
STATEMENT OF HON. MARK GREEN, ADMINISTRATOR OF THE 
            UNITED STATES AGENCY FOR INTERNATIONAL 
            DEVELOPMENT
    Mr. Green. Thank you, Mr. Chairman, Ranking Member Leahy, 
Members of the subcommittee. I appreciate this opportunity to 
summarize my testimony, and I do appreciate all the support 
that you have shown both sides of the isle.
    In total, the USAID request for fiscal year 2020 is 
approximately $19.2 billion. It represents $2.4 billion or 14 
percent more than last year's request. It is an attempt to 
balance fiscal responsibility here at home with our leadership 
role and National security imperatives around the world. In 
order to capture some of the important work we are doing, I 
would like to briefly touch upon a few of my recent travels.
    First, I have just returned from Ethiopia and Cote d'Ivoire 
with Senior Advisor to the President, Ivanka Trump. While 
there, we met with women leaders and entrepreneurs to advance 
the Women's Global Development and Prosperity Initiative. We 
discussed ways to boost the enabling environment for women 
entrepreneurs in issues like access to credit for women 
entrepreneurs at all levels.
    Earlier this month, I travelled to Senegal to lead the U.S. 
delegation to the second inauguration ceremonies for President 
Macky Sall. Senegal represents what is possible in Africa and 
elsewhere through a commitment to democracy and inclusive 
economic growth. A few months ago, I visited South America as 
we continue to craft policies regarding Venezuela, a country 
very obviously moving in a different direction.
    It is no secret that Nicolas Maduro's ruthless regime has 
destroyed that country's economic and political institutions. 
Millions of Venezuelans, young mothers with children, have 
desperately taken flight. The U.S. has responded with over $256 
million in assistance to these migrants and their host 
communities. At the request of interim President Guaido, and 
working with other countries, we have pre-positioned 
humanitarian assistance in the region for potential delivery 
into Venezuela. In fact, nearly 546 metric tons of such 
assistance. I have recently visited Jordan, another country 
where the U.S. is playing a vital humanitarian leadership role. 
We have been working hard to help reduce strains caused by 
years of conflict and displacement and to ensure that all 
people in Jordan can access essential services.
    Last year, I visited Burma and Bangladesh. Bangladesh now 
hosts one million Rohingya refugees, most of them there because 
of Burma's ruthless ethnic cleansing campaign. In Bangladesh, 
we are urging the government to allow humanitarian 
organizations to provide refugees with a full range of support 
and services. In Burma, we continue to call on the government 
to provide for the voluntary, safe, and dignified return of 
Rohingya and other vulnerable communities.
    While most of our humanitarian assistance goes for man-
made, regime driven crises, we are also responding to terrible 
natural disasters like cyclones Idai and Kenneth in Mozambique, 
Malawi, and Zimbabwe. We have mobilized approximately $60 
million in supplies and assistance to help those impacted by 
the storms. There is also the Ebola outbreak in DRC, where 
health officials have recorded over 1,400 confirmed and 
probable cases, and now more than 930 related deaths.
    As I have said previously, we need to be concerned about 
this outbreak and the serious challenges that it presents. Of 
course, humanitarian matters are only a part of our work. For 
example, we are working to push back hard on the rising anti-
democratic influence of China and Russia. USAID will soon 
unveil a framework for countering malign Kremlin influence, 
especially in Europe and Eurasia. Our 2020 request prioritizes 
$584 million to support that work. The request also reflects an 
expansion of our work to help the victims of ISIS in the Middle 
East, those who are targeted for their religion or ethnicity. 
We see helping Yazidis and Christians and others as part of 
defeating the terrorist network once and for all. Closer to 
home, when I last appeared before you, I provided an overview 
of our transformation plans. We have made great progress thanks 
to your support. I look forward to addressing any questions you 
might have going forward as we address some of the remaining 
congressional notifications.
    Finally, and most importantly, I would like to say a word 
about our most precious asset, our human resources, our 
dedicated foreign service officers, civil service staff, 
foreign service nationals, and other team members, who are 
truly on the front lines of many of the world's most pressing 
challenges. We are continuing to staff up and to bring our 
workforce into greater alignment with strategic planning 
numbers and available operating expense allocations. We are 
planning to hire approximately 140 career track foreign service 
officers before the end of fiscal year 2020. We have also 
approved 221 new civil service positions and have now selected 
10 finalists for the Donald J. Payne Fellowship Program.
    Members, I appreciate your support, your guidance, and your 
counsel. And Mr. Chairman, thank you again for this opportunity 
to appear before you.
    I welcome your questions.

    [The statement follows:]
                    Prepared Statement of Mark Green
                              introduction
    Chairman Graham, Ranking Member Leahy, Members of the subcommittee, 
thank you for this opportunity to discuss the President's fiscal year 
2020 Budget Request for USAID.
    The fiscal year 2020 request for USAID fully and partially managed 
accounts is approximately $19.2 billion, an increase of $2.4 billion, 
or 14 percent, over last year's request. It requests $6.3 billion for 
global health and $5.2 billion for the Economic Support and Development 
Fund. In terms of USAID's humanitarian assistance, it requests $6 
billion for the new International Humanitarian Assistance Account, 
which, combined with all available resources, will allow us to maintain 
the highest level ever of U.S. humanitarian assistance programming
    USAID remains focused on our core day-to-day work: helping support 
the world's most-vulnerable populations affected by humanitarian 
crises; promoting human rights, democracy, and citizen-responsive 
governance; and improving development outcomes in the areas of economic 
growth, education, environment, and health worldwide. Every day, our 
highly professional and dedicated staff work diligently to deliver 
sustainable development solutions and build self-reliance in partner 
countries, project American values globally, and advance our foreign-
policy and national-security objectives.
    I know that I cannot touch upon our work in each country in the 
limited time afforded me today, so allow me to discuss some of the 
themes and situations at the forefront of our attention.
                   optimizing humanitarian assistance
    The budget request reaffirms that Americans will always stand with 
people and countries when disaster strikes or crisis emerges. The 
fiscal year 2020 U.S. humanitarian request will provide an average of 
$9 billion in both fiscal year 2019 and fiscal year 2020 when combined 
with all available resources, allowing the U.S. to remain the single 
largest global donor and maintain roughly the highest level ever of USG 
humanitarian assistance programming. The United States will not only 
continue our role as the world leader in humanitarian assistance, but 
we will also call on others to do their part and we will work 
relentlessly to assure that assistance is delivered as effectively and 
efficiently as possible.
    Over the years, the responsibilities of the two USAID offices that 
lead the bulk of our humanitarian assistance--Food for Peace and the 
Office of U.S. Foreign Disaster Assistance (OFDA)--have been sharply 
increasing. While they have often coordinated, they have worked in 
parallel, with separate budgets, separate oversight, separate 
structures, and different strategies.
    Our overseas humanitarian assistance, within USAID's new Bureau for 
Humanitarian Assistance, supports this administration's commitment to 
optimize USAID humanitarian investments. This will ensure a seamless 
blend of food and non-food humanitarian USAID assistance, better 
serving our foreign policy interests and people in need.
    The budget also delivers on the President's commitment to optimize 
the effectiveness of the U.S. Government's outdated and fragmented 
overseas humanitarian assistance. The proposal maximizes the impact of 
taxpayer dollars, helps more beneficiaries, and delivers the greatest 
outcomes to them by consolidating all overseas humanitarian programming 
in the new Bureau at USAID while retaining State's lead role on 
humanitarian policy issues, as well as the U.S. refugee-admissions 
program.
                               venezuela
    Nowhere is America's leadership in humanitarian assistance more 
important, or more timely, than in our continued response to the man-
made, regime-driven crisis in Venezuela. As you know, the illegitimate 
dictator Nicolas Maduro has repeatedly blocked outside efforts to 
provide humanitarian relief to the millions of Venezuelan citizens in 
need. We continue to monitor the situation in Venezuela closely, where 
Maduro and his cronies have destroyed the country's institutions and 
economy, and created the largest cross-border mass exodus in the 
history of the Americas. Venezuelans could soon become one of the 
largest groups of displaced people in the world.
    In response to Interim President Juan Guaido's request for 
assistance that could help him meet some of his people's urgent needs, 
USAID and State--with support from the Departments of Defense and 
others--have pre-positioned humanitarian assistance close to the 
Venezuelan border with Colombia, and Brazil. USAID has also pre-
positioned humanitarian assistance inside of the island of Curacao, for 
eventual delivery into Venezuela. Since February 4, the U.S. Government 
has pre-positioned nearly 546 metric tons of urgently needed 
humanitarian assistance, including food aid, emergency medical items, 
hygiene kits, non-pharmaceutical commodities, water treatment units, 
and nutrition products.
    At President Trump's instruction, we have closely coordinated these 
efforts with the international community. President Ivan Duque of 
Colombia and President Jair Bolsonaro of Brazil, in particular, have 
been key allies in our efforts. The United States is grateful for our 
allies in the region who have stepped up to help the Venezuelan people 
in their hour of need.
    We will continue to support Interim President Guaido's efforts to 
deliver aid to his people in Venezuela, and also continue to help 
Colombia and other countries that are hosting Venezuelans who have 
fled. To date, the U.S. has provided more than $213 million in 
humanitarian assistance and approximately $43 million in development 
assistance for Venezuelans and host communities in the region. That 
funding has brought urgently needed food, healthcare, protection, and 
shelter, to both Venezuelans and host communities. USAID also funds 
local organizations involved with human rights, civil society, 
independent media, electoral oversight, and democratic political 
processes, and the democratically elected National Assembly. We are not 
alone in this effort. Many of our close allies have pledged support, 
and many private citizens have already contributed assistance to 
Venezuelans in the region, as well.
    The United States stands with those who are yearning for a better 
life and a true democracy. We know the answer to Venezuela's crisis 
must be human liberty and democracy; Venezuelans deserve a return to 
democracy, rule of law, and citizen-responsive governance.
    We also stand with the Cuban people who have suffered for six 
decades under an authoritarian regime--the same regime plays a crucial 
and destabilizing role in supporting Maduro and his cronies. The United 
States funds democracy programs that help the capacity of independent 
Cuban civil society, support the free flow of uncensored information to 
and from the island, and provide humanitarian assistance to political 
prisoners and their families.
    In response to requests by Cuban civil-society activities during 
the Summit of the Americas in April 2018, USAID identified an 
additional $750,000 in fiscal year 2017 funds to increase humanitarian 
support for Cuban political prisoners and their families, and to 
provide additional communications tools to civil society activists.
                         tropical cyclone idai
    USAID mobilized quickly in response to the devastating impact of 
Tropical Cyclone Idai on Mozambique, Zimbabwe, and Malawi.
    Torrential rains covered nearly 900 square miles of land in water--
that's an area larger than New York City and Los Angeles combined. 
Sadly, more than 600 people lost their lives, and 1.85 million people 
are in desperate need of assistance.
    USAID deployed a Disaster Assistance Response Team (DART), which 
includes experts in health, food security, shelter, and water, 
sanitation, and hygiene to provide technical advice and make 
assessments in real time. To prevent the spread of cholera and other 
waterborne diseases, USAID delivered relief supplies, including water-
treatment units, water-storage containers, and latrines, and is working 
with partners to provide medication and oral rehydration salts. To 
reach the communities cut off by the storm, we also requested the 
unique capabilities of the U.S. Department of Defense U.S. Africa 
Command to provide airlift and logistics support for our humanitarian 
response. Over the course of their mission, the U.S. military flew 73 
flights, and transported more than 782 metric tons of relief supplies, 
including food, medical supplies, and vehicles, as well as USAID 
disaster experts and aid workers.
    outbreak of ebola in the democratic republic of the congo (drc)
    Since the declaration of the outbreak on August 1, 2018, health 
officials have recorded at least 1,353 confirmed and probable cases, 
including 880 deaths, in DRC's North Kivu and Ituri Provinces as of 
April 23, 2019. The U.S. Government deployed a DART to the DRC to 
augment the ongoing Ebola response efforts. These disaster and health 
experts from USAID and the U.S. Centers for Disease Control and 
Prevention (CDC) within the U.S. Department of Health and Human 
Services (HHS), are working with partners to provide robust life-saving 
assistance and support affected populations. The DART is coordinating 
with the DRC Ministry of Health, the World Health Organization, other 
donors, and key actors to support a unified effort, encourage sustained 
resourcing and fair burden-sharing, and ultimately end the outbreak. 
USAID assistance works to break the chain of transmission, including 
through preventing and controlling infections, surveillance and case-
finding, contact-tracing, case-management, and raising awareness in 
communities about how the virus is transmitted.
    This response is a priority for the U.S. Government, not only 
because we are committed to supporting those affected, but also because 
effective efforts to contain and end the outbreak will prevent it from 
spreading throughout the broader region and beyond, including the 
United States. I remain concerned that the outbreak is still not 
contained, however, and am working with colleagues in the interagency 
to advocate for a more effective global response.
                rohingya crisis in bangladesh and burma
    Bangladesh now hosts one million Rohingya refugees from Burma in 
the world's largest refugee camp. Over 740,000 of these refugees 
arrived in the wake of an ethnic cleansing campaign conducted by 
Burmese security forces that began in August 2017. Last May, I went to 
Bangladesh and Burma's Rakhine State to observe firsthand the daily 
burdens and suffering facing Rohingya communities. In many ways, it is 
the harshest situation I have seen in my time at USAID. The United 
States is the largest single donor of humanitarian aid to this crisis, 
and stands as a beacon of hope to Rohingya.
    Our efforts continue to focus on measures that will improve the 
situation for Rohingya in Rakhine State, as well as Rohingya refugees 
and host communities in Bangladesh. While providing life-saving 
assistance is critical, we also undertake programming to encourage the 
Burmese Government to address the underlying causes of tension and 
violence, which are essential for lasting justice. This is a necessary 
step if that beautiful country is to fulfill the promise of its far-
from-fully-realized democratic transition.
                                 yemen
    We also remain seriously concerned about the humanitarian crisis in 
Yemen, which is the world's largest in terms of affected population. 
Approximately 80 percent of the country--more than 24 million people--
require some form of humanitarian assistance. More than 3.6 million 
people have already been displaced; there have been more than 1.6 
million suspected cases of cholera in the last 2 years, and nearly 5 
million people are one step away from famine.
    Since fiscal year 2018, the United States has provided nearly $721 
million in humanitarian aid to Yemen, and USAID is responsible for 
nearly $692 million of that assistance.
              support for religious and ethnic minorities
    The $150 million in USAID and State Department funding this Budget 
requests will help us continue our important assistance to those 
religious and ethnic minorities in the Middle East, and other regions, 
whom ISIS sought to extinguish. We believe freedom of religion and 
conscience are an essential part of our national character, and an 
essential attribute of any country that seeks to be prosperous, 
democratic, and just.
    As evidenced by the heinous attacks in Sri Lanka on Easter morning, 
religious intolerance is far from limited to the Middle East. The 
bombings that took the lives of so many, including four U.S. citizens, 
are a painful reminder that we must remain vigilant against this 
scourge. USAID extends its deepest condolences to the friends and 
families of those lost in the attacks, and we will continue our efforts 
to promote interfaith dialogue and peaceful co-existence in our work 
across the world.
                         democratic backsliding
    Another significant challenge we face in many regions is democratic 
backsliding. Rarely these days do authoritarian leaders oppose 
elections outright. Instead, as we have seen in capitals from Caracas 
to Phnom Penh, they use sophisticated tools and methods to bend 
elections to ensure they can maintain their grip on power. Subverting 
civil society and independent media, manipulating vote tabulations, and 
other anti-democratic ploys are all too often undermining hope for 
everyday citizens to be able to shape their future through the ballot 
box. USAID will continue to fund programming that aims to counter 
authoritarian impulses, nurture the capacity of civil society to 
advocate for an agenda of liberty, and advance fundamental freedoms 
worldwide.
    Many parts of the world have seen an exponential growth of 
predatory financing dressed up as development assistance. China and 
Russia have been by far the greatest, though not the sole, sources of 
such financing. This form of financing often leads to unsustainable 
debt, eroded national sovereignty, and even the forfeiture of strategic 
resources and assets.
    As part of an Agency-wide strategic approach, USAID will soon 
unveil a Framework to help us counter malign Kremlin influence, 
especially in Europe and Eurasia. This budget request prioritizes $584 
million in State Department and USAID foreign assistance to support 
that work and our efforts to aggressively communicate the stark 
differences between authoritarian financing tools and the approach that 
we and our allied donor nations use.
    Our approach is true assistance that helps partner nations build 
their own self-reliance and a more dynamic, private enterprise-driven 
future. We aim to help partner countries recognize the costs of 
alternative models, like those of China and Russia, that can weaken 
confidence in democratic and free-market systems, saddle countries with 
unsustainable debt, erode sovereignty, lead to the forfeiture of 
strategic assets ignore the needs and concerns of local communities, 
and further the militaristic ambitions of authoritarian actors.
    One positive story in our work, both in terms of supporting 
democratic processes and countering malign Kremlin influence, is in 
Ukraine. USAID provided support to the Central Election Commission in 
the lead up to the recent Presidential elections. According to the most 
trusted international and domestic monitoring organizations, the 
election was conducted peacefully and without significant external 
manipulation--representing the true will of Ukraine's citizens. We look 
forward to working with President Elect Zelenskiy to continue 
strengthening democratic processes in the country, rooting out 
corruption, empowering civil society, building a stronger basis for 
sustained prosperity, and enhancing resilience to malign Kremlin 
influence.
                         indo-pacific strategy
    America's security and prosperity at home is closely tied to a 
stable and free Indo-Pacific Region, and this request includes over 
$1.2 billion in State Department and USAID foreign assistance to 
protect U.S. interests and promote open, transparent, and citizen-
responsive governance across the Indo-Pacific.
    In Asia, USAID plays a key role in advancing the U.S. Government's 
Indo-Pacific Strategy (IPS), particularly the economic and governance 
pillars, and the latter's headlining Transparency Initiative. America's 
vision for a free and open Indo-Pacific region is one in which all 
nations are sovereign, strong, and prosperous. Together with our U.S. 
Government partners, and in coordination with like-minded donor 
partners, USAID helps advance the IPS by strengthening governance in 
areas critical to achieving this vision--primarily with regard to 
bolstering economies and free markets, supporting democratic 
institutions and transparency promoting human rights and empowered 
citizens, and fostering incentives that address the region's 
substantial infrastructure gaps --foremost in the energy, 
transportation, and digital connectivity sectors. By promoting open, 
transparent, rules-based, and citizen-responsive governance across 
Asia, the IPS mitigates the influence of predatory countries while 
unlocking private-sector-led growth that helps drive sustainable 
development and increase partner countries' self-reliance. As part of 
this strategy, USAID is playing a leading role in the interagency.
    At USAID, we are proud of our role as the world's premier 
development agency. We are just as dedicated to ensuring that we 
maintain that leadership role in the years ahead. To prepare ourselves 
for the future, in late 2017, we initiated a series of interconnected 
reforms we call Transformation. Aimed at shaping a USAID that remains 
worthy of both American investments and the talented, dedicated staff 
who work for us around the world, Transformation will allow us to 
strengthen our core capabilities, increase efficiency, and ultimately, 
improve outcomes while reducing costs. This budget request closely 
aligns with, and supports, the implementation of these plans.
    When I last appeared before this subcommittee on April 24, 2018, I 
provided an overview of several planned initiatives in our 
Transformation framework. After nearly 100 consultations with many of 
you, your staff, and colleagues across Capitol Hill, we have since 
launched our reform agenda and submitted nine Congressional 
Notifications related to the Agency's new structure. Our structure is 
closely tied to other internal reforms, and will provide the necessary 
enabling environment, within USAID, to ensure this vision takes root. I 
ask for your support for clearing the remaining Congressional 
Notifications on our Transformation, and am eager to answer any 
questions you might have.
         country roadmaps: defining and measuring self-reliance
    In pursuit of our vision of a day when development assistance is no 
longer needed, we are now orienting our work around the concept of 
fostering self-reliance in partner countries. USAID defines ``self-
reliance'' as a country's ability to plan, finance, and implement 
solutions to its own development challenges. To understand where a 
country is going in its Journey to Self-Reliance, we need to understand 
where they are on that journey and how far they have come from. To that 
end, and after consultations with USAID employees, external partners 
and other shareholders, we pulled together 17 objective, third-party 
metrics across the political, economic, and social spheres. They fall 
into two broad categories: commitment, or the degree to which a 
country's laws, policies, actions, and formal and informal governance 
mechanisms support progress toward self-reliance; and capacity, which 
refers to how far a country has come in its ability to plan, finance, 
and manage its own development agenda.
    We then assembled these metrics, country-by-country, as ``Country 
Roadmaps'' for all 136 low- and middle-income countries as classified 
by the World Bank. We rolled out Roadmaps in August 2018 for 
socialization with partner governments.
    These Roadmaps serve several purposes. First, again, they help us 
identify approximately where each country is in its development 
journey, a crucial first step in orienting our in-country approach 
around the concept of self-reliance. Second, they help inform our 
strategic decision-making and resource allocation processes and ensure 
we better focus USAID's investments. As we better align our strategies 
and our budgets, we look forward to working with you, and your 
colleagues, to ensure we have the appropriate mix of resource 
allocations. Third, because they use objective, open-source data, the 
Roadmaps provide USAID with a common touchstone for use in dialogues 
with countries and development partners. Fourth, the metrics help 
signal to USAID--and the broader U.S. Government--when a country has 
made enough development progress such that we should pursue a new, more 
enterprise-centered phase in our partnership.
    In October 2018, we published the Country Roadmaps online at 
USAID.gov. I welcome you to take a look.
   diversifying our partner base, and engaging new and underutilized 
                                partners
    Metrics provide us with critical insight, but, ultimately, it is 
our in-country partnerships that advance our mission. Tapping into the 
innovation and resources of the private sector, and working with a full 
breadth of stakeholders, is critical to achieving sustainable 
development outcomes and building self-reliance. Many local and locally 
established actors--such as education institutions, non-profits, faith-
based organizations and for-profit enterprises--have long engaged in 
their own efforts to build capacity, increase accountability, and 
provide services in countries prioritized by USAID. They are natural 
allies in our development mission, and this request includes $20 
million towards a New Partnerships Initiatives to expand our partner 
base.
    Historically, these groups have often struggled to compete for 
USAID funding because of burdensome compliance and solicitation 
requirements, the imposing dollar size and scope of our awards, and 
unfamiliarity with USAID's terminology and practices. On our end, we 
have admittedly lacked a sustained commitment to mobilizing new and 
local partners. The result has been a dwindling partner base. In fiscal 
year 2017, 60 percent of our obligations went to 25 partners, and more 
than 80 percent of our obligations went to just 75 partners. The number 
of new partners has decreased consistently since 2011.
    With the launch of USAID's first-ever Acquisition and Assistance 
(A&A) Strategy last December, we seek to reverse this trend, and tap 
into the good ideas and innovative approaches we know exist in 
underutilized partners. Included in the core tenets of our Strategy are 
more collaborative approaches to partnership, prioritizing innovation, 
and building the commitment and capacity of new partners. By 
diversifying our partner-base, we will not only incorporate new ideas 
and approaches into our tool-kit, but we will also strengthen locally 
led development--a core component of each country's Journey to Self-
Reliance.
                strengthening private-sector engagement
    While there will always be an important role for traditional 
contracting and grant-making in our work, we can accelerate and amplify 
our efforts and outcomes by increasingly applying market-based 
solutions to the development challenges we aim to address. At USAID, we 
have long recognized that private enterprise is the most-powerful force 
on earth for lifting lives out of poverty, strengthening communities, 
and building self-reliance. But until recently, the Agency lacked a 
formal, overarching policy to guide and galvanize our engagement with 
the private-sector.
    That changed last December with the launch of USAID's Private-
Sector Engagement Policy. The Policy serves as a call to action for all 
Agency staff and partners to increase and strengthen our work with 
commercial firms, and embrace market-based approaches to achieve 
outcomes. We seek ever-greater input from the private-sector to move 
beyond mere contracts and grants to include more true collaboration--
co-design, co-creation, and co-financing.
    As part of this greater focus on private-sector engagement, USAID 
looks forward to a close partnership with the new Development Finance 
Corporation (DFC) established by the BUILD Act to mobilize financing, 
and this Request provides $50 million towards the new DFC. With close 
integration of tools such as the Development Credit Authority (DCA), 
the Overseas Private Investment Corporation (OPIC), new equity 
authority and other reforms, the DFC will make private-sector 
engagement much more effective. We are working closely with OPIC and 
the White House to make the new DFC a reality. Through collaborative 
endeavors with our United States Government partners and the private 
sector, we seek to join up our respective expertise to tackle problems 
that neither could fully address alone.
    We pursue greater engagement with the private sector because it is 
sound development, it achieves better outcomes, and it leverages the 
vast, largely untapped resources of commercial enterprise throughout 
the world. But we also pursue it because it is good for American 
businesses. The world's fastest-growing economies are largely in the 
developing world. USAID's work to promote regulatory reform already 
helps level the playing field for American businesses, by reducing 
their barrier to entry in these large markets. Combined with financing 
support from the new DFC, the United States can help bring these 
American businesses directly to the table to tackle specific challenges 
and further expand their opportunities.
    This renewed emphasis on private sector engagement has already 
borne fruit. For example, last November, I signed a Memorandum of 
Understanding between USAID and Corteva, one of America's great 
agribusinesses. Together, we will tackle global hunger while 
simultaneously cultivating new markets for U.S. technology and 
expertise. I am excited to see what other partnerships emerge in the 
months and years ahead.
                      women's economic empowerment
    No country can meaningfully progress in the Journey to Self-
Reliance if it shuns half its population. The development dividends of 
greater participation by women in the economy are numerous. Our 
experience shows that investing in women and girls accelerates gains 
across the full development spectrum, from preventing conflict to 
improving food security and economic opportunity.
    The President's National Security Strategy clearly recognizes 
women's empowerment as a top foreign policy priority. On February 7, 
2019, President Trump launched the Women's Global Development and 
Prosperity (W-GDP), and signed a Presidential Security Memorandum that 
clearly and decisively links the ability of women to participate fully 
and freely in the economy with greater peace and prosperity across the 
world. In fiscal year 2018, we allocated $50 million for W-GDP. This 
year's request goes further, and includes $100 million to support 
workforce-development and skills-training, greater access to capital, 
and changes to the enabling environment so that, around the world, all 
women have greater opportunities to reach their full economic 
potential.
                                staffing
    At USAID, our human resources are our most precious asset. Our 
professional, experienced, and dedicated corps of Foreign Service 
Officers (FSOs) are at the frontlines of what we do as an Agency. In 
recognition of that, USAID will continue to staff up and bring our 
Foreign Service workforce into greater alignment with strategic 
planning numbers and our available Operating Expense budget. 
Specifically, we are seeking to expand our overseas Foreign Service 
capability to better manage financial risk, increase program oversight, 
provide critical support for the President's Emergency Plan For AIDS 
Relief (PEPFAR), and fill technical positions that have been 
chronically short-staffed. USAID has also selected 10 finalists for the 
2019 Payne Fellowship program.
    USAID is preparing to hire approximately 140 career-track FSOs 
between now and the end of fiscal year 2020. Hiring 140 FSOs over the 
next two fiscal years and adjusting for attrition would bring the total 
FSO workforce by the end of fiscal year 2020 to just over 1,700 FSOs. 
For USAID's Civil Service, USAID's Hiring Review and Reassignment 
Board, has approved the hiring of an additional 221 staff to be added 
to the General Schedule workforce, which stood at 1,181 U.S. Direct 
Hires (USDH) as of February 2019.
    To support USAID's mission, we seek to test a non-career, term-
limited personnel system that is more efficient and flexible than our 
current systems while also better for many program-funded staff, by 
improving benefits and professional development. Within this budget 
proposal, USAID is also requesting to pilot an Adaptive Personnel 
Project (APP) to develop an agile, non-career/at-will U.S Direct Hire 
personnel system that can rapidly hire, move, and retain a talented, 
program-funded workforce. APP would be a program-funded, direct-hire 
mechanism with Federal benefits and inherently governmental 
authorities. The overall vision is to improve USAID's ability to hire 
the right talent, at the right time, in the right place, for the right 
duration of time.
                               conclusion
    Mr. Chairman, Ranking Member, and Members of the subcommittee, I 
believe we are shaping an Agency that is capable of leveraging our 
influence, authority, and available resources to advance U.S. 
interests, transform the way we provide humanitarian and development 
assistance, and, alongside the rest of the world, meet the daunting 
challenges we all see today. With your support and guidance, we will 
ensure USAID remains the world's premier international development 
Agency and continues the important work we do, each day, to protect 
America's future security and prosperity.
    Thank you for allowing me to speak with you today, and I welcome 
your questions.

    Senator Graham. Thank you. My first is a comment. If we 
restored the funding that is being proposed, the cuts that are 
being proposed by the administration, do you think you could 
wisely spend the money?
    Mr. Green. Yes, Mr. Chairman.

                       DEMOCRACY AND HUMAN RIGHTS

    Senator Graham. Given what you know about the world, do you 
think now is the time to cut $1 billion out of democracy, human 
rights, and governance programs?
    Mr. Green. Mr. Chairman, as I have testified, this budget 
represents a delicate balance between obligations here at home 
to the taxpayers and priorities around the world.

                          AFGHANISTAN SECURITY

    Senator Graham. Rather than beating you up about some of 
the absurd cuts to this budget, let us just move on because 
that would take the whole six minutes. And I know you are a 
good guy and I could not think of a better person to be in 
charge than you, so it is nothing personal. Afghanistan, could 
our programs function in Afghanistan if we withdrew all our 
military forces effectively?
    Mr. Green. Mr. Chairman----
    Senator Graham. Would you be worried about the safety of 
your people?
    Mr. Green. Yes.

                                 LIBYA

    Senator Graham. Okay. Libya, do we have any presence on the 
ground in Libya?
    Mr. Green. I want to make sure I do not misspeak. We are 
watching the situation carefully and are obviously concerned 
about security. We have partners on the ground.
    Senator Graham. So pretty much we are out of the game in 
Libya?
    Mr. Green. I would not----
    Senator Graham. How much money did we spend in Libya to 
stabilize Libya?
    Mr. Green. Mr. Chairman, I do not have that number with me. 
I will get back to you.

    [The information follows:]

    In 2015, U.S. assistance totaled $38,910,000. In fiscal year 2016, 
it totaled $34,134,000. And in fiscal year 2017, it totaled 
$225,702,000, which includes $131,500,000 in funds from the fiscal year 
2017 Security Assistance Appropriations Act. Since 2011, the State 
Department and USAID have provided nearly $521 million in stabilization 
funding to transition Libya to a unified, inclusive, and accountable 
government capable of providing security, denying safe haven to ISIS 
and other extremist groups, and building prosperity for all Libyans. In 
addition, during this timeframe the U.S. Government has provided over 
$169 million in humanitarian assistance to deliver food, health, 
protection, shelter, and water, sanitation, and hygiene assistance for 
conflict-affected people in Libya, including internally displaced 
persons (IDPs), refugees, and migrants.

    Senator Graham. And the only reason I mention this is 
because I just got back from traveling. I was in Tunisia the 
day that the President called Haftar, the eastern militia 
leader, and that call sent a signal to everybody that somehow 
we are changing our strategy, we are backing him, which I think 
would be a disaster. So, I just want everybody to know that if 
Libya continues to fall apart, then we will have another wave 
of refugees going into Tunisia. They are a good ally and it 
would create a lot of racial instability.

                           NORTHERN TRIANGLE

    Do you support cutting off aid to the Northern Triangle 
countries?
    Mr. Green. Mr. Chairman, as you know, right now the State 
Department has essentially frozen assistance and is undertaking 
a review. We think our programs are part of the answer, and we 
look forward to working with State upon completion of the 
review. And I note that this request does, for 2020, allocate 
resources for the Northern Triangle area, and so we are very 
hopeful that we will be able to continue on with work, 
modifying it making it better, obviously. Everyone recognizes 
that there is a crisis.
    Senator Graham. I think that is what destabilized these 
countries. We clearly need to change our laws that create 
massive waves of immigration from Central America, but we are 
not going to change the root problem until we address it, which 
is governance, corruption, and violence in these three 
countries. Is that correct?
    Mr. Green. I think, clearly, tackling those challenges is 
part of the answer. Again, we are working hard to develop new 
metrics so that our programs can be targeted more effectively.
    Senator Graham. I appreciate that, but I just want to be on 
record that I think the only way you are going to solve this 
problem is to stay involved in the Northern Triangle countries, 
not withdraw.

                               VENEZUELA

    If Maduro falls today, do we have a plan to help the 
Venezuelan people?
    Mr. Green. One hopes Mr. Maduro falls today----
    Senator Graham. Well let us just assume he will because 
eventually he will.
    Mr. Green. No, I would agree. His days are numbered. I do 
not know what that number is. I hope it is a small one. We have 
been engaging in scenario planning each and every day, and we 
are in close contact with representatives of the Guaido 
government and leadership.
    Senator Graham. So here is what I would ask you to do. 
Submit a supplemental emergency, whatever you want to call it, 
request to this subcommittee when that day comes so that we can 
get ahead, for a change, of problems where vacuums are created, 
and I think most Members of this subcommittee would gladly help 
you with some resources to stabilize Venezuela when Maduro 
falls, not if. So, in that regard, we would very much 
appreciate any advice you give us about what a good response 
would look like.

                               THE SAHEL

    From your point of view, Cote d'Ivoire, you were there 
right? The port of Cote d'Ivoire is essential to providing some 
economic prosperity to the Sahel. Do you agree?
    Mr. Green. I do. I was not with you on that part of the 
recent trip, but absolutely. It is one of its key strategic 
assets.
    Senator Graham. And the Sahel is being held together 
basically by duct tape, and if it falls apart there will be 
another wave of migration.
    Mr. Green. We agree with the priority of stabilization and 
economic growth. As you know, we are developing an integrated 
plan with the State Department, particularly in the air in 
Niger and Burkina Faso, but I agree with your priority and 
appreciate your leadership on the Sahel. I think it is, in fact 
should be, a high priority, and I also agree that ungoverned 
spaces particular in that part of the world are a risk and a 
danger to us in our strategic interests.

                             EBOLA OUTBREAK

    Senator Graham. Thank you. How concerned should this 
subcommittee be about the Ebola outbreak in the DRC, and what 
should we be doing that we are not doing?
    Mr. Green. Thank you, Mr. Chairman. We should be very 
concerned. In my estimation, the outbreak is far from under 
control. Secretary Azar, from Health and Human Services, and I 
have both sent correspondence to the WHO, to Dr. Tedros. We 
need a much more aggressive vaccine strategy, among other 
things. But when it comes to Ebola in the DRC, the DRC setting 
is a labyrinth of challenges, poor governance, resentment 
towards community leaders. You have a failure of democracy in 
many, many ways. So, they are all kinds of challenges. It will 
take more than simply a medical approach. It will take a 
development approach to try to tackle this terrible disease and 
to contain its outbreak.
    Senator Graham. Senator Leahy.
    Senator Leahy. Mr. Chairman, the past is prologue. In 
fiscal year 2018-2019, the budget request for USAID, to follow 
up with what Senator Graham said, proposed cuts in virtually 
every program funded by the subcommittee. Most of those cuts 
were overwhelmingly rejected by Republicans and Democrats alike 
because they would have eroded decades of progress against 
poverty, disease, and despair. Now we have a budget filled with 
feel-good language about self-reliance and so on, but the 
fiscal year 2019 omnibus included $8.8 billion for global 
health programs. For fiscal year 2020, 1 year later the 
President requests $6.3 billion. And even that is $16 million 
below the fiscal year 2019.
    Look at the panic we had in this country when one case of 
Ebola, which is always just a plane ride away from the U.S., 
showed up in Texas. And then I look at what China and Russia 
are doing to extend their influence. I just led a codel to east 
Asia. We began in Alaska. Went to Korea, then Vietnam. We were 
very impressed with your people in Vietnam who are working to 
help those who have been suffering from the effects of Agent 
Orange and injuries caused by land mines. But we got an earful 
from our military commanders in Alaska, and our military 
commanders in Hawaii, about what Russia and China are doing 
throughout that region.
    Now, President Trump says since the Northern Triangle 
governments are not preventing their citizens from leaving and 
seeking asylum elsewhere, which they have the right to do, we 
should stop providing aid to those countries.

                           NORTHERN TRIANGLE

    Am I correct that roughly $450 billion in unobligated 2018 
funds with the Northern Triangle is being reprogrammed? 
Possibly including some health programs?
    Mr. Green. It is true that pending final decisions from the 
Secretary of State it is money that is being redirected to 
other global priorities.
    Senator Leahy. I understand $450 million. Potentially 
hundreds of millions of fiscal year 2017 funds. Now what 
percentage of the aid that we send to these countries do not go 
to the national government but rather go to the people?
    Mr. Green. I do not have that number with me but very 
obviously a lot of this money is aimed towards taking on 
citizen security and taking on economic growth. Trying to 
create some vibrancy closer to home such that particular young 
people in those areas see their future closer to home.
    Senator Leahy. I think you would find the majority of it 
goes directly to the people, and reprogramming it means it is 
taken away from helping the same people we want to stay in 
their country.

                 ASSISTANCE FOR THE WEST BANK AND GAZA

    Now USAID, and I have seen its work, is supporting programs 
to help meet the basic health, education, water and sanitation, 
and other needs of the Palestinian people in the West Bank. We 
supported humanitarian assistance to Palestinians in Gaza 
through the U.N. Relief and Works Agency. Is the USAID 
providing any assistance to the Palestinian people today?
    Mr. Green. As of today, no we are not.
    Senator Leahy. Okay. We created a cross-border, people-to-
people program to promote reconciliation between Israelis and 
the Palestinians. Everybody I talked in Israel says it is a 
great idea, and the only people who did not like it was Hamas. 
Most Palestinians like it. Is that program stopped?
    Mr. Green. The only assistance that we are able to supply 
with regard to West Bank, Gaza is that entirely inside Israel, 
the people-to-people person program that is inside Israel. In 
terms of cross border work, no we are not as of January.
    Senator Leahy. So, it would seem to me, you do not have to 
respond to this, but it would seem to me that does not do too 
much to encourage self-reliance among the Palestinian people.

                             CLIMATE CHANGE

    Does USAID have a climate change strategy, specifically to 
help countries mitigate and adapt to global warming? I say this 
because I can think of wars starting over water among other 
things. Do you have specific programs at USAID to address 
climate change?
    Mr. Green. We have had and continue to have a number of 
programs to help countries deal with the fallout from changing 
climate, from food security and resilience programs to land use 
planning in places like Indonesia. And that will continue to be 
an important part of our work.
    Senator Leahy. In fiscal year 2019, we provided $179 
million for renewable energy programs, $177 million for 
adaptation programs. I just want to know how you are going to 
spend these funds and is there anything in the fiscal year 2020 
budget for these kind of purposes?
    Mr. Green. Again, our programming goes towards helping 
countries deal with the consequences of changing climate, and 
so it cuts across many parts of our work and we will continue 
to do that work from promoting biodiversity to food security 
and resilience. So, we will continue to do that work because 
that is what our partner countries call for, and they need.
    Senator Leahy. Thank you. I appreciate you being here. I 
think it is safe to say that both Senator Graham and I want you 
to be successful.
    Senator Graham. Yes, amen. Senator Shaheen.

                            FAMILY PLANNING

    Senator Shaheen. Thank you, Mr. Chairman and let me share 
my--and my thanks Administrator Green, for your leadership at 
USAID and for your being here today to discuss the budget 
proposal for your agency. This administration has expanded the 
Mexico City policy to include U.S. global health programs. I 
have real concerns that this policy was not properly vetted and 
that it is having severe impacts on our health programs in many 
countries.
    The last time I raised this with someone from the State 
Department, I was told that we are still trying to collect 
information on what the impact is of that expanded policy. But, 
the Foundation for AIDS Research conducted a 6-month study to 
determine the effect of the expand in Mexico City policy and 
their findings strongly suggest that the delivery of 
comprehensive sexual reproductive health information services 
by current PEPFAR implementing partners is being disrupted by 
the expanded policy. In fact, 69 percent of countries which 
were surveyed, and they were most common in sub-Saharan Africa, 
they indicated that at least one organization in that country 
had to change the way it provides services or its operations. 
And of course, we know that the majority of PEPFAR funding is 
located in sub-Saharan Africa.
    In January of 2019, the NGO Marie Stopes International, who 
is not signed on to the administration's policy, also reported 
a funding gap at $50 million as a direct result of this policy, 
and their information suggests that just means 1.4 million 
fewer women have access to contraception services and that will 
lead to 600,000 more unsafe abortions and 4,600 avoidable 
maternal deaths. That is just one organization that is being 
affected.
    I assume that we would agree. While we may disagree on the 
importance of reproductive choice, that we would agree that we 
would like to see America's policies when it comes to delivery 
of services reduce the number of unsafe abortions and improve 
maternal health. Would you agree with me that that should be a 
goal of our policy?
    Mr. Green. And I will say is I think it is important to 
point out we are the largest bilateral donor to global health 
and will continue to be under the President's request. And as 
to the issues you raised forcefully, and you and I have spoken 
many times and you are very passionate obviously and 
understandably on this cause, the new report will be coming out 
in a matter of weeks.
    We think it should be out in the month of May to address 
some of the issues and questions that you raised as we promised 
you we will. We were delayed, quite frankly, because of the 
last Senate appropriations but that should be coming forward to 
you soon so that we will have the facts. You will be able to 
take a look and see what some of the impacts and effects have 
been.
    Obviously our obligation is where a partner does not agree 
to the conditions, the standard language through the Protecting 
Life in Global Health Assistance (PLGHA), is to provide a 
transition and minimize disruption that is what we have been 
undertaking in terms of some of the numbers that you raised. We 
will make sure that we get to you those numbers and have a 
briefing with you to make sure that we have addressed the 
questions that you have raised.
    Senator Shaheen. I appreciate that. I understand that under 
the new policy that Secretary Pompeo has announced, that not 
only are the foreign NGOs who receive U.S. funding required to 
comply with the policy, but they are expected to please their 
partners and their partners' partners while ensuring their own 
compliance. So, is that correct and is USAID doing anything 
differently to help them provide the information that is 
required?
    Mr. Green. So, two parts to that. First, the latter part of 
it in line with the Secretary's announcement, we are working 
with State to finalize both frequently asked questions and what 
the standard language looks like but as of the first part of 
it, this part of the Secretary's announcement does not reflect 
a change in policy. It is the same policy that was in existence 
say last year. There are a couple of other minor changes that 
were announced that actually do not touch upon those issues, 
but in terms of the underlying issue of the follow on sub-
grantees, that is actually not a change in policy. It is 
consistent with the policy last year.
    Senator Shaheen. But I guess that doesn't get it at my 
underlying question, which is are the NGOs who receive 
assistance required to police the partners that they do 
business with. How does that information relate to USAID and 
what is USAID doing to help them with how to figure out how to 
police this?
    Mr. Green. So again, it is actually not a change in policy. 
What it does require is a certification. It does require in the 
standard language that they agree to its provisions. In terms 
of reporting----
    Senator Shaheen. Excuse me. I am sorry to interrupt but let 
me just be clear. And the certification requires not only that 
they comply with the expanded policy, but that any partner that 
they are doing business with, they are required to ensure that 
they are complying as well?
    Mr. Green. It is. Again, clarifying existing policy that 
any organization which receives funding subject to PLGHA is not 
providing support to any foreign organization that provides 
abortion services or counseling. So, it is actually not a 
change in policy. As to the impacts, when we did the first 
report we gave to you and briefed you on, as you know and as 
you pointed out, that was 6 months into the policy, and so we 
had relatively modest data at that point.
    We now obviously have much more time that we are looking 
at. And in terms of what the consequences in numbers are, what 
its effects have been, that is what we will be able to report 
to you in May. And I will say in terms of actual numbers and 
organizations involved, that is actually what is in the final 
stages of the report that is being prepared that State and 
USAID and others are finalizing.
    Senator Shaheen. So, will it report the number of entities 
that are--those organizations that are receiving assistance are 
doing business with, will that be part of the report as well? 
Will we look at how they are being affected as well in terms of 
the impact of this policy?
    Mr. Green. It will report those organizations that have 
chosen not to accept funding under those conditions. Yes, if 
that is what you are asking.
    Senator Shaheen. Yes. And will it provide the impact of 
what that means in terms of lives and other health impacts from 
the failure to use that funding?
    Mr. Green. Well the funding will be used. It will simply be 
used by other organizations. So, we transitioned to other 
organizations that are willing to accept funding under the 
conditions of PLGHA. So, the funding--this actually does not 
reduce funding by a dollar. It does change the organizations 
that are willing to do that work subject to receive those 
funds.

                              AFGHANISTAN

    Senator Shaheen. Well, I look forward to the report. I want 
to go to Afghanistan because two weeks ago I was in Kabul. We 
met with representatives of the government, met with women 
leaders in the country, and talked to them about their concerns 
for ending the war. The women that I spoke with were very 
eloquent in saying that they were tired of the war. They wanted 
it to end after 40 years but they did not want to see their 
rights reduced that they have enjoyed since the Taliban was 
overthrown.
    And one of the things that was clear is that any post-
conflict situation is going to require support for economic 
development in Afghanistan. And yet, this budget request 
reduces the funds for economic development there by $100 
million, a cut of 20 percent. So, I would say given the 
situation there, do you think that the deed for foreign aid to 
help with economic development should be diminished at this 
point?
    Mr. Green. Senator, as you know the Secretary has ordered a 
pause to review in Afghanistan that we have been participating 
in. We will, in our work, continue to perform according to the 
recent country development cooperation strategy, and quite 
frankly investment in women in terms of women's education, 
economic empowerment, and participation in government is 
crucial part of the future of Afghanistan. I think we have all 
known that for quite some time so we will continue to 
prioritize those programs. Again, we see it as vital to the 
future.
    We are obviously all hoping for successful outcome in the 
peace negotiations that are underway, but we certainly can plan 
to continue investing in women. It is programming that were 
awfully proud of, from the teachers that we have trained to the 
young girls who are going to school who could not before, to 
those who are participating in civil society and governance. We 
think it is truly a hopeful sign for Afghanistan's future.
    Senator Shaheen. Well I certainly agree with that and I 
hope you will share that priority with everyone involved in any 
future peace negotiations. Thank you. Thank you, Mr. Chairman.
    Senator Graham. Senator Moran.
    Senator Moran. Mr. Chairman, thank you. Administrator Green 
thank you for being here. Thank you for taking time to visit 
with me in my office yesterday, and I thank you for your 
leadership in working to make the world a better place. General 
John Allen who was a former commander of U.S. forces in 
Afghanistan, I have kept his quote around to remind myself and 
he said this, in many respects, USAID efforts can do as much 
over the long-term to prevent conflict as the deterrent effect 
of a carrier strike group or Marine expeditionary force. It 
brings me to the importance of food aid.

                                FOOD AID

    Can you tell us about how the essential programs like Food 
for Peace, Feed the Future, and the Dole-McGovern programs 
are--how important they are to the stability of developing 
societies to the well-being of our own country, and is now an 
appropriate time to cut funding to those programs?
    Mr. Green. Senator, I appreciated the chance that we had to 
talk about the importance of these programs. And as I mentioned 
to you, food security and the food security tools that we have 
did not exist when I served as ambassador, to my great regret 
quite frankly, in Africa.
    I think our food assistance from, obviously, that we 
provide on a humanitarian basis to, I would argue even more 
importantly what we do in terms of food security investments on 
the developing side, is one of the true highlights of American 
foreign policy and development policy. This is an area in which 
America is pretty good. American agribusiness leads the world 
in what it is able to provide, and so when we're able to share 
this technology and help spread these investments, we help 
countries deal with, and Senator Leahy brought up the issue of 
climate change, but we help them deal with resilience issues 
from drought to the fallout from changing climate and natural 
disasters.
    So, this is some of the most important work that we do. 
With the funding for Feed the Future, we continue to focus on 
our target countries, the 12 countries that were determined 
according to the criteria under the Global Food Security Act, 
and we think these are the countries in which we can make the 
greatest difference, and so that is where our focus is. But 
also, the investments that we have made in recent years 
continue, and we continue to get the benefits of those.
    So even though, you know, we have had to balance, 
obviously, funding for these programs with fiscal needs here at 
home, I am confident that we will continue to lead in the food 
security field.
    Senator Moran. Administrator, I certainly care about both 
the development and humanitarian side of our efforts in regard 
to food aid. I have carried with me a photograph that I took in 
Kansas more than a year ago. It is no different today than it 
was then, with grain piled as high as you can see up to a local 
grain elevator in the absence of markets, and I would highlight 
for you as I have done for the Secretary of the Department of 
Agriculture the opportunity that we have not only to feed the 
world but to utilize grain that is otherwise sitting on the 
ground in Kansas and across the country. Our farmers 
desperately need markets and grain desperately needs to be 
consumed, and we have famines ongoing around the globe and it 
seems to me we ought to be able to bring these two things 
together.

                       PEOPLE'S REPUBLIC OF CHINA

    In a different vein, I appreciate how seriously you take 
China's efforts to extend its influence through its Belt and 
Road Initiative. In our conversation, you exhibited a 
significant amount of passion for this topic. Would you talk 
about China's practices and what we need to do as the Unites 
States of America to counter them?
    Mr. Green. Thank you, Senator. You are right. This is a 
cause that is important to me personally and I think is 
important for the United States in the world these days. First 
off, I do not like to use the term great-power competition that 
some use because it almost implies that we are on a plane field 
playing by the same set of rules, seeking the same outcome, and 
that is simply not true. We do foreign assistance, they do 
predatory financing, quite frankly.
    And so, I think the striking differences between the two 
models of engagement in the world is something that we should 
not shy away from talking about over and over and over again. I 
had, for example, a reference, a conversation I had with some 
American businesses working in Central America and they said, 
you know, you all talk about Chinese assistance, we call it 
loan-to-own. They provide money and they know they are not 
going to get paid back. They are simply going to get assets 
surrendered to them.
    Also, secondly, the tools that we use. So, we try to bring 
the strength of private enterprise to our investments. The 
Chinese model brings Chinese business, which is often a wolf in 
sheep's clothing, harvesting data and collecting data for their 
own purposes and interests. Also, quite frankly, you know, 
China talks about how its overriding policy is noninterference 
and my argument is that when they use, in a place like 
Venezuela, technology that they honed and sharpened in 
Tiananmen Square, that is a non-interference? That is 
interference on behalf of the dictators and against everyday 
citizens.
    What we offer is a taste of the American dream. We offer 
opportunity. We offer self-reliance. We help countries lead 
themselves. We need to talk about it over and over and over 
again. If we get caught up in a numbers discussion or financial 
arms race in terms of dollars, I think it is a mistake because 
we are playing by different sets of rules and have different 
purposes. We want to help countries lead themselves and we 
should talk about it over and over and over again. We want to 
liberate the coming generations in places like Africa to be 
able to provide for themselves and grab a taste of what it is 
that you and I have here.
    And so, I am passionate about it and I think it should be 
at the heart of our policy.
    Senator Graham. That is a great answer. Senator Merkley.

                           WEST BANK AND GAZA

    Senator Merkley. Well, thank you, Mr. Chairman and 
Administrator Green. Your work spans the globe, affecting 
millions of people's lives. Starting first with the West Bank 
and Gaza. It is a very difficult place to have an economy. We 
have in the past helped with water infrastructure and health 
infrastructure, housing, and nutrition. How important is that 
assistance from United States?
    Mr. Green. Well, obviously, we believe in all of our tools 
in the investments that we make. As we have discussed, a 
combination of events has put us in a place where in terms of 
West Bank, Gaza, you know, we are not providing programming at 
this moment. A combination of a review ordered by the 
administration last fall, which led to the redirection of some 
funding, and then the Anti-Terrorism Clarification Act of 2018 
(ATCA) at the end of last year, has prevented us, and in the 
resulting letter from the Palestinian authorities saying they 
would not accept assistance from us, has put us in the position 
where we are unable to do just about all of the programming 
that we would do.
    To be clear, we do not plan to close our mission in West 
Bank, Gaza. However, we are clearly reducing our staff size 
because of the lack of programs that we are able to do. But we 
are hopeful that when the peace plan is unveiled, we are 
hopeful and believe that we will be a part of it in terms of 
the future, and so we are hoping to be able to get back to some 
programming. That could be part of the peace solutions.
    Senator Merkley. The time. I am going to ask you to answer 
a little more succinctly. Thank you.
    Mr. Green. I apologize.
    Senator Merkley. You know, one of these, you mentioned the 
peace plan, and one of the supporting documents to the budget's 
mission says that aid to the West Bank should be contingent on 
diplomatic progress achieved in support of U.S. objectives in 
peace. Does this mean that we are politicizing our aid? That we 
only give it if they say yes to whatever peace plan we put 
forward?
    Mr. Green. Senator, I do not have any visibility on the 
peace plan discussions. I do not think that that is what it is 
saying. I think what they are saying is that we hope to get to 
a place where we are able to be able to provide assistance as 
part of a peace plan, but I would not characterize it as 
politicizing the aid.
    Senator Merkley. Okay. I was concerned about that language 
and want you to take a look at it because that is certainly the 
way it sounds that aid is frozen until we get agreement from 
them in our plan. The U.S. has been a very powerful broker in 
the peace dialogue, but I do not think politicizing aid would 
be helpful in that regard.

                           NORTHERN TRIANGLE

    Turning to the Northern Triangle, how much actual--are 
resources that we appropriated then were affected by the 
conditions that the Congress put on it, by holds that some 
Members put on the funding, and by the administration's 
certifications. How many dollars did we actually deliver for 
fiscal year 2018 to the ground in the Northern Triangle?
    Mr. Green. So, for fiscal year 2018, we do not currently 
have obligation data available. For fiscal year 2017, we 
obligated a total of $366 million for the three Northern 
triangle countries, and I can break those down.
    Senator Merkley. Yes. I knew it what was obligated but it 
is actually quite a difference between what was obligated and 
what arrived on the ground. Maybe we can follow up later and 
take a look at that difference.
    I went down with Senator Carper, some House Members to meet 
with the presidents and review the U.S. strategy aid there. It 
is a pretty bleak story of vast stunting on the nutritional, 
extreme extortion on street level businesses, the big influence 
of drug cartels, and high-level corruption. The list is pretty 
long and the amount of aid we delivered I think was a fraction 
of that $366 million and it pales in comparison to remittances, 
which in the last year were $17 billion.
    It seems to me if we are going to have an influence on 
tackling those problems to affect people's desperate flight 
north, we are going to have to put a lot more resources into 
it.
    Mr. Green. Senator, I look forward to following up with 
your office and we will try to provide those numbers for you.

    [The information follows:]

    Of the $366 million, $292 million has been obligated directly or 
sub-obligated to a contract or grant, or transferred to another agency 
for USAID programming on the ground in El Salvador, Guatemala, and 
Honduras as of March 31, 2019.

                                 BURMA

    Senator Merkley. Turning to the Rohingya situation. Thank 
you for your work on that. We are the biggest aid provider to 
help Bangladesh address the plight of the Rohingya who some 
hundred thousand are crowded into Cox's Bazar. I am concerned 
about one plan of the Bangladesh government which is to put 
120,000 people onto a mudflat in the middle of the Delta that I 
think would be massively impacted in any major storm because 
any major storm floods about a third of the country as it is. 
Are we expressing any concern as a Government about the impact 
people being put onto that Bhashan Char island?
    Mr. Green. What I can say is we are in no way, shape, or 
form funding it and providing support to it. I share your 
concern. I think last year we were all fortunate in that we did 
not have the heavy rains and storms that so often hit in that 
area, and so we have been taking the opportunity to reinforce 
shelters. It is not a perfect answer but at least it is a 
little bit.
    And we have made clear in our discussions with the 
Bangladeshi government that we seek to provide a full range of 
services to give these poor people some hope. As we have 
discussed, the plight of the Rohingya, particularly those left 
behind in Burma, I think has filled me with more despair than 
almost anything else that I have seen. It is a truly terrible 
situation.

                                 SUDAN

    Senator Merkley. My time is up so I will just close with 
the comment that in Sudan people have risen up against Bashir. 
He has been taken off the scene. There may be a moment here 
where there is a possibility of democracy or just another day 
of military dictatorship, but I am hoping that all aspects of 
our State Department, all resources in our foreign strategy, 
will be brought to bear to help the people of Sudan transition 
to democratic control that reflect the will of the people.
    Mr. Green. Thank you, Senator.
    Senator Graham. Senator Lankford.

                           NORTHERN TRIANGLE

    Senator Lankford. Thank you, Mr. Chairman. Mr. Green, thank 
you for being here. Thank for all your work. You do a lot 
around the world and so we appreciate you, both your traveling 
and your engagement, and your attention to detail. I want to 
follow up on a statement that Senator Merkley made about the 
Northern Triangle. About 4 years ago, we committed about $650 
million towards the Northern Triangle. At the end of that time 
period, several of us in this committee went back to be able to 
ask, where did the money go, how was it used strategically. And 
the pretty clear answer we got from the State Department was, 
we only had half a year and so our focus was getting the money 
out the door. And it went to basically every Federal entity 
that had a footprint there just to be able to make sure we 
spent it and we got it out the door. That was not the answer we 
were hoping to get. The answer was, what are we doing, how are 
we measuring it.
    So, the next year we came back and asked the same question. 
We got a fairly similar response of, hey, we are just getting 
organized. So, this subcommittee actually put some requirements 
on State Department in our past appropriations work to just ask 
the question, what are the metrics, where are you looking to 
go, what are we trying to accomplish? Now the response of the 
administration to an area that has been very important to us 
and is quite frankly exceptionally important to the United 
States if that goes well, the response of the administration 
seems to be, well we are not getting the answer back yet on 
getting metrics and all those things are changing so we are 
just going to pull back funding entirely, I hope the answer is, 
until we get it right and then lean back in.
    So, my question for you really has to deal with the 
development assistance. What is the target, what is the plan to 
be able to do there because there are essential needs and it is 
very important to us just in stabilizing our own country to 
make sure we have a stable Central America as well. That is to 
the benefit of our foreign policy to make sure that that is 
strong as well.
    Mr. Green. Great question. So, first off, globally we have 
changed all the metrics that we use to measure our work, and we 
have actually produced road maps for each country. We are using 
17 independent indicators trying to measure progress on those 
characteristics that we think are essential for self-reliance. 
As specifically to the Northern Triangle, a few things that we 
are doing.
    So, we began adjusting our programming in recent months to 
focus our programs as much as we can on those areas that are 
producing, according to apprehension data, the largest number 
of refugee or migrant flows. So that is the first piece of it. 
Secondly, we have been working on and hope to be able to return 
to, in the future, being able to put specifically into our 
programs, into all of our offerings, contracts and grants and 
our partnerships with private business, specifically reducing 
migrant legal immigration flows as an objective against to 
which contracts and grants must be evaluated. So, we 
incentivized our partners to look specifically at that issue 
and to report on it. And we think that is one of the best ways 
to get the data that you are looking for.
    Senator Lankford. I will tell when I met, and many of us 
have been in the region, but when I met with leaders in the 
region, they desperately want their focus to stay. They want to 
create----
    Mr. Green. It is their future. It is the life blood of 
their future.

                                LEBANON

    Senator Lankford. Correct. They see hard workers leaving 
the area and is to the detriment of their country and to the 
region as a whole. And they are trying to figure out how to be 
able to stop that as well but let me shift a little bit. 
Another really important partner for us in the Middle East is 
Lebanon. They have 1.5 million refugees from Syria there. I was 
in the Beqaa Valley a few weeks ago. It is remarkable to be in 
some of those communities and see two, three times more Syrians 
than there are Lebanese in those area. It is a very difficult 
challenge for them. It is one the U.N. has been very engaged 
in.
    I know that you are engaged in as well, and it is very 
important to us that we stay engaged with Lebanon, the LAF, and 
what they are doing to be able to stabilize the country as well 
as our ongoing partnerships there. Help me understand kind of 
the goals of how things have changed in the last couple of 
months for USAID in Lebanon and kind of the direction you want 
to go.
    Mr. Green. Thank you, Senator. I agree with the importance 
that you place upon Lebanon. Obviously our goal is to promote a 
stable, sovereign, and prosperous country that is at peace with 
its neighbors. So, we are working to provide quality reliable 
education, water and sanitation to Lebanese citizens as well as 
Syrian refugees living there. That is a big part of our focus. 
We do not currently have an assistance agreement with the 
government of Lebanon, which creates some limitations on what 
we are able to do. We are primarily engaging with civil 
society, and local and regional governmental leaders, but from 
providing services to those who have been displaced to the host 
communities, it is a high priority for the reasons that you 
stated.

                                 BURMA

    Senator Lankford. That is great. Help me understand a 
little bit with Burma. You mentioned in your opening statement 
that you spent a lot time on a man-made disasters basically, on 
being able to help, and your target is to be able to help 
determine what can we do not only to help people in this area 
but hopefully change the status quo of what is actually 
happening there long term. How do you measure that in a place 
like Burma, to be able to figure out obviously so much human 
need that is there and in Bangladesh and the region. But trying 
to change the status quo for the people long term on that, how 
do you measure that?
    Mr. Green. Difficult to measure in a setting like that. So, 
in the case of Burma, two aspects to it. The overriding theme 
of our work is that the government of Burma needs to complete 
its democratic revolution.
    The great hope that we all had that was launched, 
unfortunately, it is entirely incomplete. They did the first 
part of it, perhaps the easiest part of it. They now need to 
create a vibrant civil society that gives the ability for its 
numerous community groups to be able to engage in a 
constructive way and that is not taking place right now. 
Secondly, with respect to the Rohingya who are in Burma who 
have been left behind, I can tell you that I visited a 
displaced community camp not far from Sittwe, essentially a 
prison camp. I mean, there were fences and guards, and I had to 
look in the eyes of a young father as he said to me, I will 
never forget this, he said okay, there is no mosque so we 
cannot worship, there are no teachers so my kids can't get an 
education, I am not allowed to leave without written permission 
which I never get, and the only food I have got is what you 
give me. What do I tell my son?
    I have no answer to that, and so we need to continue to 
press the government of Burma to change that scenario. They 
have to find ways to reintegrate, in a dignified, voluntary, 
and safe manner, the Rohingya because they are part of the 
future, and until that happens, you are going to continue to 
see the despair, and my opinion, inherent instability.
    Senator Lankford. True. Thank you.
    Senator Graham. Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman. Welcome 
Administrator Green and thank you for all of the work that you 
are doing and your team at USAID with the resources that you do 
have. I just want to second the comments of the Chairman with 
respect to the budget that was submitted. It is totally 
inadequate to support important U.S. foreign policy goals and I 
am confident this subcommittee will address that.

                                 EGYPT

    Let me ask you about Egypt because I know you visited Egypt 
recently. You have got President el-Sisi who of course visited 
the United States recently at the same time that he has 
imprisoned thousands of Egyptians for expressing their 
political views, tortured a lot of his citizens simply for 
expressing their political views, has imprisoned as of today 
about 15 to 20 U.S. citizens on trumped-up charges. Would you 
agree that it would be appropriate for us to condition any U.S. 
assistance, whether military or economic, at the very least on 
the release of U.S. citizens who were imprisoned by Egypt?
    Mr. Green. I would refer you to the State Department for a 
statement of foreign policy, however, let me say that clearly 
that is not in line with our values. Secondly, you know, as you 
and I discussed, we work through civil society groups. That is 
how we do our assistance. And so, when you have restrictive 
laws and regulations that make it difficult for civil society 
to be vibrant and to operate, quite frankly that restricts our 
ability to help them with the things that they seek to achieve 
as a people and a government.
    Senator Van Hollen. Yes. And I know as we discussed 
yesterday, we are hopeful Egypt will change that law to at 
least allow NGOs to operate more freely again. That of course 
doesn't address the issue of the 15 to 20 American citizens 
that are being detained.

                           WEST BANK AND GAZA

    Let me follow up on some questions that Senator Merkley 
asked regarding assistance to Palestinians whether in Gaza or 
the West Bank. You referenced the Anti-Terrorism Clarification 
Act of 2018 (ATCA). We talked about this yesterday. Would you 
agree that the way the ATCA has been interpreted has led to 
some unintended consequences?
    Mr. Green. I am assuming they were unintended. I would ask 
the authors but clearly it has been eliminated our ability to 
do programming in the West Bank, Gaza area involving 
Palestinians. They followed up with correspondence and 
indicated they would not accept it.
    Senator Van Hollen. Yes, and look I support the Taylor 
Force Act. I was, you know, co-sponsor of that legislation, 
making sure that systems did not flow through the Palestinian 
Authority (PA) but what the ATCA has done, and I believe it was 
unintended, was to prevent any humanitarian assistance flowing 
to support humanitarian efforts in the West Bank, Gaza or 
elsewhere. But as you indicated that is only half the equation, 
right. This administration actually has made a deliberate 
decision to terminate all U.S. assistance in any event. Did 
they consult with you at all before they made that decision?
    Mr. Green. So last fall, the administration determined to 
redirect assistance then from West Bank, Gaza. What we are 
hopeful for now----
    Senator Van Hollen. So, Mr. Green, a simple question. I 
mean as I recall they did not----
    Mr. Green. So, we certainly have been providing input on 
our programming and we continue to do that.
    Senator Van Hollen. Did you recommend terminating U.S. 
assistance to Palestinians?
    Mr. Green. I was not asked. And so, I did not recommend.
    Senator Van Hollen. Okay. Would you agree that those 
programs, for example, support through Catholic relief 
services, Lutheran World Federation, the Augusta Victoria 
Hospital, that those have served U.S. interests by providing 
humanitarian relief?
    Mr. Green. We believe that all of our programs do and so I 
will stand up for all of our programs. And we are very hopeful 
that we will be getting to a place as part of a peace deal or 
peace offering that will allow us to return to doing some of 
that work there.
    Senator Van Hollen. Well I appreciate your hopefulness. I 
unfortunately am less hopeful given everything I have been 
hearing about the so-called plan of the century which to me 
sounds more like an effort on the one hand to just totally 
squeeze the Palestinians economically by cutting off assistance 
as you just described has been the administration's position, 
thinking that somehow that is going to get people to surrender 
some of their political objectives. That has never been, in my 
view, a formula for success but I guess hope springs eternal. 
Speaking of that, I am concerned because you were in Jordan 
recently as well, right?
    Mr. Green. Yes.

                                 JORDAN

    Senator Van Hollen. And, you know, the King when he was 
here a few months ago expressed great concern about the fact 
that the United States had ended its commitment to the United 
Nations Relief and Works Agency (UNRWA). The Jordanian foreign 
minister has repeatedly said that that is going to create 
instability. On the short-term we have seen others around the 
world held back though some of that support, but do you agree 
with the foreign minister that supporting UNRWA is important to 
stability in Jordan given all of their challenges that they are 
facing?
    Mr. Green. Senator, I do not mean to duck the question but 
UNRWA is a State program, so I refer you to the State 
Department.
    Senator Van Hollen. And I understand that, but you were 
just in Jordan and there is a lot going on there. And, you 
know, Jordan is going to be squeezed in a big way, politically, 
if the so-called deal of the century does not address some 
fundamental issues. We are putting the King, who has been a 
little island of stability and a pro-American leader, in an 
awful situation by cutting off funding for UNRWA and possibly 
making him very vulnerable, with respect to whatever we are 
going to roll out on the so-called deal of the century. So, do 
you share any of those concerns based on your recent visit to 
Jordan?
    Mr. Green. You know, as we discussed, I take a look at 
Jordan and the tremendous challenges that they face inherent in 
their status as a host community and so I think it is incumbent 
upon all of us to do what we can to obviously to ease the 
burden, financial burden, but also create more vibrant 
opportunities for the young people. It is our largest mission 
and will continue to be a central part of our engagement in the 
region. It is very, very important.
    Senator Van Hollen. Thank you. Thank you, Mr. Chairman.
    Senator Graham. Before Senator Coons, if the Palestinian 
Authority (PA) fell who would replace them?
    Mr. Green. Senator, I cannot answer that question.
    Senator Graham. Probably not good people.
    Senator Coons. Thank you, Chairman Graham. Thank you 
Administrator Green for testifying today and for your 
tremendous service to our country. It was great to see you in 
Cote d'Ivoire, the World Bank's Women's Empowerment Conference 
that I attended along with Chairman Graham, and it is good to 
see you back here in Washington as well.
    As many of my colleagues have said, the administration's 
proposal to cut 27 percent from the total international affairs 
budget or the 150 accounts is dead on arrival, so I will forgo 
detailing all the different ways in which I think it is ill-
advised and I oppose it. I just want to express my gratitude to 
the Chairman and many others here in a bipartisan basis for 
saying we will not embrace a cut of that significance. One 
example I will point to that I think helped show why these cuts 
would be concerning is the Democratic Republic of the Congo.

                             EBOLA OUTBREAK

    As I think you know very well, the Democratic Republic of 
the Congo is simultaneously going through a governance crisis, 
a humanitarian crisis, and a raging Ebola outbreak, and of the 
first attack by an ISIS linked group in the country, yet the 
budget proposes a 30 percent cut in assistance to DRC. As you 
have conveyed to me, and many others have as well, the Ebola 
outbreak in DRC is spreading and is increasingly out of 
control.
    A record 26 people died of Ebola in North Kivu Province 
today alone, the highest daily toll since the outbreak began. I 
would be interested in your telling this subcommittee how we 
can strengthen your efforts and support your efforts to 
encourage the WHO to do more to fight this outbreak, and in 
your opinion, are we investing enough resources in preventive 
global health security measures to improve resiliency and to 
prevent this Ebola outbreak from getting further out into the 
region?
    Mr. Green. Great question. So first off, I would say that 
the investments that we have made on the global health side 
have been strong and I think effective. I think this is far 
greater than a global health challenge and that I think is 
really what makes this particular pandemic challenge among the 
most challenging and daunting that we have ever faced because 
it is layer after layer of problems.
    And I think that the answer to it is going to require more 
than simply global health and humanitarian investments. It will 
take development investments, as you know, and we have talked 
about in many of the poorest parts of the world, when we try to 
engage in the kinds of behavioral change, communication that is 
often at the heart of our work, it is very difficult for people 
who are hungry, who are facing problems of effective democratic 
representation, facing a wide range challenges, to focus on the 
one that we are bringing forward. So, I suspect the effective 
path forward, which we are pushing hard on, will be a 
comprehensive approach that does involve a lot of addressing of 
development challenges on top of the immediate medical ones.
    In addition, we have been on the record, we sent 
correspondence to WHO, urging them, calling upon them to take a 
much more aggressive stance in their vaccines strategy. You 
know, as you know as we have discussed, there are population 
centers nearby the outbreak area that if the disease were to 
spread there, I think would present numerous significant 
challenges. So, I appreciate your bringing it up because I 
think it is one of the most important, certainly global health, 
but one of the most important challenges on a security front 
that we face right now.
    Senator Coons. Should we take comfort from the fact that 
there is a vaccine or is there a ceiling in terms of the number 
of currently manufactured and available vaccine doses and a 
real risk that when we hit that ceiling we will not be able to 
replenish the supply for a significant period of time?
    Mr. Green. One of the challenges with the vaccine that we 
are using currently is they take 8 to 10 months to replenish. 
And so, we need to be thinking ahead. And again, my view is 
that if we are going to err on the side of caution producing 
far more vaccines supplies that might be immediately called 
for, and also secondly, let's face it, we should not assume 
that this will be the only pandemic, the only outbreak that we 
face. And so, I think to be properly prepared and responsible, 
I think we need to significantly ramp up. There are other 
vaccines that are out there. There is a two dose vaccine which 
represents some challenge and its deployment but is being used 
with healthcare professionals, health workers. But again, we 
need a much more aggressive vaccine strategy in my estimation.
    Senator Coons. I appreciate your staying in close touch 
with us about it because I am very concerned that there is not 
the level of engagement that there needs to be from our 
Government when Ebola got away from us in West Africa.
    Mr. Green. And if I can say, I think one of the other 
challenges to remember is the new head of state in DRC was 
named newly elected and has not been able to form a new 
government yet. And so, the minister of health that is in place 
today will not be the minister of health in a matter of weeks 
and that of course creates uncertainty. So, there are many 
challenges beyond the immediate global health challenge.

                FRAGILE STATES AND GLOBAL FRAGILITY ACT

    Senator Coons. One of the other challenges is how ISIS or 
an ISIS linked group has taken advantage of these governance 
and humanitarian challenges to execute the first ever attack by 
ISIS linked group in DRC. Do you think USAID and our whole 
foreign policy apparatus is well positioned to take preventive 
measures to combat extremism in fragile states?
    As I think you are well aware, Senator Graham and I are 
working to advance the Global Fragility Act to require State 
Department, USAID, Department of Defense to collaborate on a 
strategy to prevent, reduce fragility in at least five priority 
countries, and it would direct resources to a partnership 
development fund to leverage private dollars and donors by 
allied or partner countries. And I hope you will support this 
legislation, but I am interested in whether you think we 
currently are well-positioned to deal with fragile states and 
preventing them from becoming failed states in exactly the way 
we are seeing unfold in the DRC?
    Mr. Green. This legislation and the thrust behind it is 
most welcomed. We look forward to working with you on it. As we 
have talked about, nature abhors a vacuum and so does 
stability, and right now there is a vacuum in many ways, 
particularly in the Sahel region, and so we need to sharpen our 
tools and sharpen coordination across the interagency to make 
sure that we deploy them carefully in a coordinated fashion and 
I think you have touched upon the right mix. So, we look 
forward to working with you on it. It is very, very important.

             UNITED STATES DEVELOPMENT FINANCE CORPORATION

    Senator Coons. Let me also just ask, President Trump signed 
the bill act into law last year. It is a bill that I took a 
very active hand in and it authorizes the establishment of a 
new development finance corporation. I am just returned from a 
trip to Asia where I met with leadership of the export-import 
bank of Korea, published an article in partnership with our 
ambassador in Japan about how we could work with the Japan Bank 
for International Cooperation (JBIC).
    One of my concerns is that it retained, you know, the word 
development in the title Development Finance Corporation not 
there by accident. It was certainly my intention that there be 
very strong links between our lead development agency, USAID, 
and the implementation. That there be both double-headed 
leadership and field staff and assessments that ensure that 
these projects are not just commercial in nature but have a 
development focus.
    Are there concerns you have or that you would be willing to 
share with us about implementation? Are you confident this will 
be a development finance corporation?
    Mr. Green. Senator, I really appreciate your question, also 
what you have put on the record, especially as a leading author 
of the legislation. Upon its passage and being signed into law, 
we immediately began meeting with the Overseas Private 
Investment Corporation (OPIC), our counterpart, towards the 
implementation according to the legislation. And I think that 
those meetings have been good, constructive meetings but in 
many ways the most important decisions lie ahead of us and I 
think it is crucial that it retain integration of development 
and the field staff that we have around the world at USAID, 
with the tools that OPIC brings newly enhanced, thanks to the 
legislation. And I think it is also important that we look at 
it with a clear development impact.
    It is important that, if we are going to compete with 
China, it is important that our assistance incentivize the 
kinds of reforms that helped countries to reach self-reliance 
and self-sufficiency. Again, China will never do that. If we 
simply provide loans, if we simply provide assistance but do 
not incentivize reforms and do not have a very clear 
development outcome to projects, I think we will fall short of 
what you intend with the legislation. And so, we are hopeful in 
coming weeks and months that we will be able to have that 
integration. I think it is important.
    Senator Coons. Thank you for that answer. You know, as 
Senator Graham and I worked on the Fragile States bill, we 
recognized it will be challenging to get State and Defense and 
USAID to all pull in the same direction, all work together but 
that is the only way that a comprehensive strategy to prevent 
fragile states from becoming failed states can actually work 
for the Development Finance Corporation to actually carry 
forward on the vision that many of us worked so hard to get 
into law here in the Congress. It has got to be a development 
finance corporation.
    At the Belt and Road Conference in Beijing just a few days 
ago, Xi Jinping responded to criticism that many of their 
projects are opaque, are burdening partner countries with 
excessive debt, and do not have a development focus. I think we 
need to be showing an alternative approach that is genuinely 
transparent, that are good deals from a commercial perspective 
but that are also sound from the development perspective.
    I know the chairman has been quite tolerant with my going 
well over time. I just want to ask one last question. One of 
the things I am trying to move forward is a partnership fund 
for peace that would put $50 million into assistance to the 
Palestinian people through private sector partnerships. This is 
not through the Palestinian Authority (PA). This is not for any 
other intermediary. It is essentially to take advantage of 
existing USAID work in East Jerusalem and private sector work 
to scale a partnerships between entrepreneurs who are both 
Israeli and Palestinian. Is that something you are familiar 
with? Is that something you could imagine being a positive in 
the environment that Senator Van Hollen was just talking about 
where the withdrawal of our support for UNRWA is leaving a 
significant vacuum in the perception of our support for the 
advancement of the Palestinian people?
    Mr. Green. Well, obviously I would have to see the 
legislation and would have to take a look at the legal 
framework within which we are working, but anytime that we can 
sow seeds of private enterprise, growth, and economic 
opportunity seems to me to be a good thing.
    Senator Coons. Well, thank you for your testimony and I 
very much look forward to working with you in the year ahead. 
We have got a lot of important things to do together. Thank 
you, Administrator. Thank you, Mr. Chairman.
    Senator Graham. Thanks, Senator Coons, and you will be 
invited to appear before the Foreign Relations Subcommittee on 
Africa to talk about the Global Fragility Act and we hope to 
have a hearing and a markup and get it moving. Thanks again 
Mark for coming. Statements for the record from the Office of 
the Inspector General, USAID, and a letter from the Comptroller 
General of the United States regarding ``Priority Open 
Recommendations: U.S. Agency for International Development'', 
will be made part of today's record (see Appendix at the end of 
the hearing).

                     ADDITIONAL COMMITTEE QUESTIONS

    I would ask that subcommittee Members submit any questions 
for the record no later than this Friday, May 3rd, by 2:00 p.m.
    [The following questions were not asked at the hearing, but 
were submitted to the Agency for response subsequent to the 
hearing:]
                 Questions Submitted to Hon. Mark Green
             Questions Submitted by Senator Lindsey Graham
    Question. Will the ``safe zone'' require humanitarian and 
stabilization assistance? How much is included in the fiscal year 2020 
budget request for this purpose?
    Answer. The U.S. Agency for International Development (USAID) 
currently funds 21 organizations that are delivering humanitarian 
assistance in Northeast Syria, including international non-governmental 
organizations and United Nations agencies. USAID continues to monitor 
discussions about ``safe zones'' in Syria, but cannot determine at this 
time the level of humanitarian and stabilization assistance, if any, 
that might be required for them.
    Question. Does the administration intend to continue to fund the 
important work of the White Helmets? How much is included in the fiscal 
year 2020 budget request for this purpose?
    Answer. With available funding, the U.S. Agency for International 
Development (USAID) continues to fund and prioritize the life-saving 
work of the White Helmets; from fiscal years 2013 through fiscal year 
2018, USAID provided approximately $39 million in financing from 
humanitarian accounts to the White Helmets. There is no indication this 
posture will change as we move into 2020, although the President did 
not include dedicated funding for the White Helmets in the budget 
request for fiscal year 2020.
    Question. The fiscal year 2020 budget request is a 21 percent cut 
below the fiscal year 2019 enacted level. In Asia specifically, what is 
your narrative to explain to allies and adversaries that America is not 
retreating?
    Answer. The President's budget request for fiscal year 2020 for 
Asia is nearly 50-percent higher than his proposal for the region in 
the previous year. Since last year, the Administration has launched an 
ambitious strategy to promote a free, open, and secure Indo-Pacific 
region. For its part, to achieve maximum results for available dollars 
under the Indo-Pacific Strategy (IPS), the U.S. Agency for 
International Development (USAID) has developed a sharply focused plan 
for aggressively scaling up approaches already proven successful. 
Throughout Asia, we will redouble our efforts to engage the private 
sector--American and local--to increase the impact of foreign 
assistance. We will work with governments, civil society, and the 
private sector in our partner countries to mobilize domestic resources 
to advance our joint development objectives, and we will leverage 
funding from like-minded bilateral and multilateral donors in the 
region.
    Question. What is the role of USAID in implementing the Indo-
Pacific Strategy?
    Answer. The role of the U.S. Agency for International Development 
(USAID) is to build capacity and commitment in our partner countries to 
bring about the necessary changes to achieve the goal of the Indo-
Pacific Strategy (IPS): to advance a free, open, and secure Indo-
Pacific region in which all nations are sovereign, strong, and 
prosperous. Taking advantage of relationships that USAID develops by 
being present on the ground, we are focused on creating the necessary 
regulatory environment to achieve three key objectives:

  --Strengthen Democratic Systems: Over the last few years, democratic 
        institutions across Asia have been significantly tested, 
        particularly because of increased corruption, opaque commercial 
        deals, and subversions of national sovereignty. USAID will 
        implement programs in democracy and citizen-responsive 
        governance that promote the integrity of electoral processes, 
        protect human rights and promote religious freedom, strengthen 
        the independence of media and the integrity of information, and 
        support civil society.
  --Foster Economic Growth: Despite Asia's growing wealth, a number of 
        challenges constrain partner countries' growth and create 
        opportunities for foreign predatory tactics that create 
        economic and political dependency. USAID's programs in economic 
        growth and governance will focus on leveling the playing field 
        for trade, improving competitiveness, creating an enabling 
        environment for the development of high-quality infrastructure, 
        and strengthening the digital economy and connectivity.
  --Improve the Management of Natural Resources: Irresponsible 
        infrastructure projects erode the natural resources upon which 
        many of our partner countries depend for their long-term 
        growth. USAID will fund programs that focus on strengthening 
        legal frameworks for the management of natural resources and 
        enforcement of environmental safeguards; fostering sustainable 
        private-sector supply-chains; enabling energy-sector 
        transformation and safeguards; promoting the adoption of 
        international environmental standards; supporting water and 
        energy security; and encouraging legal and sustainable forestry 
        and fishing.

    Question. We understand that State and USAID are implementing a 50 
percent personnel reduction in Embassy Kabul, and the budget for 
Afghanistan is a 24 percent cut below fiscal year 2018 enacted.

  --What was the strategic rationale for reducing our personnel 
        footprint in Afghanistan?
  --Where does USAID plan to reduce staff and what impact will this 
        have on our ability to effectively implement assistance?
  --Is the Administration signaling to Iran and the Taliban that we are 
        abandoning Afghanistan?

    Answer. The Islamic Republic of Afghanistan remains an important 
focus of U.S. foreign policy. The U.S. Agency for International 
Development (USAID) is reviewing our current assistance program in 
Afghanistan in an effort to better align it with core U.S. national-
security interests. These core objectives include supporting the Afghan 
peace process and preserving the flexibility to invest in the 
implementation of an eventual peace settlement; preserving state 
stability, including support for citizen-responsive, democratic 
governance to guard against conditions that create or enable the 
establishment of terrorist safe havens; and assisting the transition to 
Afghan self-reliance by supporting private-sector growth led by 
exports, and funding civil society to provide core functions 
customarily provided by government.
    While undertaking this realignment, we wish to remain flexibly 
responsive to changing needs in Afghanistan, while shifting to more-
sustainable levels of staff in Kabul. Under the direction of the 
Secretary of State, we have completed the initial planning for a 50-
percent reduction in staffing at the USAID Mission in Afghanistan. We 
anticipate the adjustment will affect all offices at the Mission while 
preserving key competencies for implementation, planning, and 
oversight. The plan will not affect Foreign Service National staffing. 
In addition, USAID plans to consolidate and streamline our portfolio to 
improve management with fewer staff. With these changes, USAID 
anticipates we will still be able to provide sufficient oversight and 
performance-monitoring of our programming.
    Question. The administration proposes significant cuts to 
assistance for Pakistan ($265 million below the fiscal year 2019 
request level), including reprogramming funds in the pipeline.

  --Is USAID planning on a staffing reduction in Pakistan? If so, by 
        what percentage?

    Answer. As the Mission of the U.S. Agency for International 
Development (USAID) in the Islamic Republic of Pakistan continues to 
spend down its pipeline and our programs evolve through their life 
cycles, the Agency will adjust staff levels in Islamabad accordingly, 
including the mix of hiring mechanisms, to reflect oversight and 
operational needs dictated by programmatic requirements. While the 
President's budget request for fiscal year 2020 for development 
assistance for Pakistan is significantly lower than the fiscal year 
2019 request, the USAID Mission in Islamabad continues to implement a 
substantial portfolio of existing programs, and will maintain staffing 
levels necessary for the responsible management of U.S. taxpayer 
resources. USAID will notify Congress about any changes to staffing 
levels in Pakistan.
    Question. What is the appropriate role for USAID in addressing the 
long-term development challenges that fuel conflict, including scarce 
resources, high birth rates, and lack of education/economic 
opportunities?
    Answer. Most countries in which the U.S. Agency for International 
Development (USAID) operates are making gains along the Journey to 
Self-Reliance, but some are experiencing various degrees of fragility. 
Ineffective governance, exclusionary politics, corruption, and 
festering social tensions drive vulnerability to armed conflict, 
extremist and political violence, and even state collapse. 
Environmental hazards, the depletion of natural resources, rising 
migration, and other stresses exacerbate these vulnerabilities.
    To protect gains in fragile countries, USAID's investments aim to 
prevent crises in the first place, by counteracting the drivers of 
conflict, violence, and other instability. Through conflict-sensitive 
approaches to development assistance, USAID uses resources for health, 
education, economic growth, and food security to address conflict-
fueling grievances and foster constructive engagement. When instability 
does erupt, USAID assists governments, civil society, and the private 
sector to mobilize effective responses to mitigate the impact of these 
crises. To ensure rapid and strong recovery from crises, USAID's 
programming works to strengthen resilience to shocks and stresses at 
the national and community level, including those that result from 
increasingly strained natural resources and mounting environmental 
pressures.
    Question. What programs are contained in the fiscal year 2020 
budget request to address conflict and development in Africa?
    Answer. The President's budget request for fiscal year 2020 budget 
includes requests for bilateral conflict-mitigation and stabilization 
programs in the Republics of Burundi, Mali, and South Sudan, the 
Democratic Republic of Congo, the Federal Democratic Republic of 
Ethiopia, and the Federal Republics of Nigeria and Somalia. 
Historically, Missions of the U.S. Agency for International Development 
(USAID) in Africa have also received resources from the Reconciliation 
and Complex Crisis Funds managed by the Bureau for Democracy, Conflict, 
and Humanitarian Assistance (DCHA) for activities to promote the 
involvement of women in peace and security.
    In countries that do not have bilateral conflict-mitigation and 
stabilization funds, USAID seeks to address the root causes of violence 
indirectly through conflict-sensitive approaches across diverse sectors 
and funding sources. Conflict-sensitive approaches recognize explicitly 
and seek to mitigate risks that development assistance will aggravate 
grievances or increase tensions between groups, and when possible, also 
attempt to rebuild trust within the parameters of their development 
objectives (e.g. health, education, agriculture).
    Question. What is the ``Prosper Africa'' initiative, and what level 
of funding is included in the fiscal year 2020 budget for its 
implementation?
    Answer. Prosper Africa is the Trump Administration's whole-of-
Government, economic initiative to increase two-way trade and 
investment between the United States and Africa while supporting jobs 
at home and abroad. It will advance African and American prosperity and 
security, fuel mutual economic growth and job-creation, and demonstrate 
the superior value proposition of transparent markets and private 
enterprise for driving self-reliance.
    Prosper Africa is a new way of doing business. It will modernize 
the way the U.S. Government supports the private sector by using its 
expansive presence, capabilities, and expertise to increase engagement 
on the African continent. The Initiative is not an effort to absolve 
any Federal Departments or Agencies of their existing mandates; they 
will continue to do what they do best, and use scarce resources to 
address systemic problems that exclude American competitors and sponsor 
game-changing interventions. Fifteen U.S. Government Departments and 
Agencies will work together to facilitate transactions and foster fair 
and accessible business climates and robust financial markets across 
Africa.
    The President's request for Prosper Africa for fiscal year 2020 is 
$50 million.
    Question. How can the Committee best support implementation of the 
Women's Global Development and Prosperity initiative?
    Answer. The Members of your Committee, whose leadership and support 
are critical to upholding and advancing women's empowerment, and 
equality between men and women, play an important role with the Women's 
Global Development and Prosperity Initiative (W-GDP), a first-of-its-
kind whole-of-Government approach to enhance women's participation in 
the global economy. The U.S. Agency for International Development 
(USAID) manages the W-GDP Fund, an innovative vehicle for scaling 
proven programs and catalyzing private-sector engagement, which 
currently consists of discretionary development dollars from fiscal 
year 2018. As codified in the Women's Entrepreneurship and Economic 
Empowerment (WEEE) Act of 2018, multiple factors affect gender equality 
and women's empowerment, which require investments across sectors and 
integration of effective interventions into every program by using the 
best available evidence. We welcome the Committee's support to shine a 
light on the critical issues that affect gender equality and women's 
dignity and economic empowerment, such as gender-based violence.
    Question. Do you agree that the U.S. and other international donors 
must do more--earlier and better--to bolster governance, institutions, 
and the legitimacy of the state to counter the rise of extremism?
    Answer. Preventing the growth and spread of violent extremism is 
key to achieving the goals outlined in the 2018 U.S. National Strategy 
on Counterterrorism. Security is fundamental to achieving objectives 
embodied in the Journey to Self-Reliance. Ineffective governance, 
exclusionary politics, corruption, and festering social tensions drive 
vulnerability to armed conflict, extremist and political violence, and 
even state collapse.
    To be successful, we must work with national and local governments, 
international organizations, civil society, faith-based organizations, 
the private sector, affected communities, and others to address the 
drivers of violent extremism, conflict, and instability. The U.S. 
Agency for International Development (USAID) is shifting to a systemic, 
whole-of-society approach across its programming to counter violent 
extremism to advance the U.S. Government's strategy to prevent 
terrorism. These programs will focus explicitly on the challenges posed 
by violent extremism, targeted at a hyper-localized level, and will 
leverage critical local partners.
    Question. What total resources has USAID requested in fiscal year 
2020 to address fragile states in Africa and elsewhere?
    Answer. The U.S. Agency for International Development (USAID) has 
requested $338.4 million in Economic Support and Development Funds in 
fiscal year 2020 for bilateral programs to address development 
challenges in 18 of the 22 most-fragile states in Africa, according to 
the Fund for Peace's Fragile States Index (using the ``Alert,'' ``High 
Alert,'' and ``Very High Alert'' categories). This figure does not 
include funding for health programs or resources that benefit these 
countries via regional or centrally managed programs.
    It is important to note, however, that there is no universally 
agreed definition of ``fragile states.'' The World Bank, the 
Organization for Economic Co-operation and Development, and the Fragile 
States Index, among others, classify fragile states differently. USAID 
does not explicitly label countries ``fragile'' and ``non-fragile,'' 
budget for fragile states, or fund ``fragility'' programs. Instead, 
USAID seeks to understand the underlying patterns of governance that 
drive fragility and vulnerability to crisis, and address those through 
development-assistance interventions across sectors.
    Programs in peace and security and democracy, human rights, and 
governance target the underlying drivers of fragility. Programs in all 
development sectors, including health, education, and food security can 
also help to reduce fragility by incorporating approaches that 
strengthen governance relationships within and between state and 
society. As a result, this can help enhance inclusion and cohesion, and 
build transformative capacities at the local level.
                           foreign assistance
    Question. The Committee is aware of an ongoing foreign assistance 
review. What are the elements of this review and which countries is the 
Department or NSC conducting reviews of foreign assistance?
    What was the role of USAID in this review?
    Answer. We refer all questions on the Foreign Assistance 
Realignment to the National Security Council.
    Question. There has been discussion that USAID is in the process of 
creating a ``New Partners Initiative'' (NPI) that aims to make U.S. 
foreign assistance more effective by leveraging the strong local 
community relationships enjoyed by many small to medium-sized non-
profit organizations. Smaller organizations, both faith-based and 
secular, have an immense ``value add'' to USAID missions through their 
unique ability to build partnerships and relationships on a local 
level. These organizations are able to mobilize resources and respond 
quickly to immediate needs and conflicts. Can you please provide the 
committee with updated information on the status of the NPI?
    Answer. The U.S. Agency for International Development (USAID) has 
shifted to focus on increasing the ability of governments, civil 
society, and the private sector in our partner countries to plan, fund, 
and manage their own development based on their individual levels of 
capacity and commitment, an approach we call the ``Journey to Self-
Reliance.'' Advancing self-reliance means diversifying the Agency's 
partner base, strengthening the capacity of local partners, and 
managing awards more proactively to hold traditional partners 
accountable for empowering local organizations to lead in the 
implementation of programs. The New Partnerships Initiative models how 
we plan to pursue all of these strategic objectives.
    We, at USAID, also believe that small to medium-sized 
organizations, both faith-based and secular, bring immense value to 
development. As USAID seeks to accomplish our core purposes in 
development assistance or humanitarian relief, we need to reach corners 
and communities of the world where governments cannot effectively go, 
or have chosen not to go. USAID must be able to touch people who have 
been left behind or forgotten. In many settings, this involves working 
first with civil society, including communities of faith. Civil-society 
and faith-based partners are often uniquely trusted by, and capable of 
delivering services in, these neglected communities. They can harness 
networks, resources, and insights that help us reach out in ways the 
U.S. Government, host-country governments, or international partners 
otherwise could not.
    USAID will launch the NPI on May 1, 2019, to attract a wider range 
of potential award applicants--such as civil society, faith- and 
community-based organizations, small businesses, local entrepreneurs, 
universities, diaspora groups, and others--and facilitate their working 
with the Agency. The Initiative itself was a recommendation of the 
Effective Partnering and Procurement Reform (EPPR) work stream under 
USAID's Transformation initiative.
    A priority under the NPI is pursuing greater direct engagement with 
new and ``underutilized'' partners (defined as organizations that have 
received less than $25 million cumulatively from USAID over the last 5 
years). The NPI defines ``local partners'' to include both local 
entities and locally established organizations. USAID's Missions will 
pursue direct awards to new and local partners that qualify, and 
alternatively engage established partners as awardees that mentor new 
and local partners as sub-awardees. Such prime partners will then focus 
on building the capacity of their subprime partners and pass through 
the majority of funds to them, so the sub-recipients can lead in 
implementation. In addition, USAID will deepen our engagement with 
established partners to leverage significant private development 
assistance and other non-Federal funding. This will enable the Agency 
to scale outcomes and extend our mission in hard-to-reach areas. The 
NPI approach should help USAID's Missions to engage new and 
underutilized partners through a series of solicitations designed by 
technical bureaus to meet shared, country-level objectives.
    On May 1, USAID will release the first NPI solicitation, an NPI 
Annual Program Statement (APS) from the Bureau for Democracy, Conflict 
and Humanitarian Assistance. This solicitation will focus on the 
prevention of, and recovery from, conflict, with an Addendum from our 
Mission in Iraq. USAID's Missions will release more country-level 
addenda soon, and the Bureau for Global Health will issue an NPI APS in 
the coming weeks.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
    Question. Anyone who is paying attention to what is happening in 
the world can see that pressures on developing countries are 
increasing. Climate change and an increase in the number and severity 
of natural disasters, armed conflict, human displacement, unsustainable 
rates of population growth, energy and water shortages, weak 
governance, corruption, violent extremism, Ebola and other public 
health threats--the list of complex challenges the world faces, and 
especially poor countries, is not getting shorter.
    Given the above, and given that USAID's entire budget is a fraction 
of 1 percent of the total Federal budget, why is the administration 
proposing to slash funding by an average of more than 20 percent from 
the current level for USAID programs and personnel to combat these 
problems?
    Answer. While the administration views the role of the U.S. Agency 
for International Development (USAID) as critical to national security, 
the President also remains committed to restraining overall non-defense 
discretionary spending, including for USAID. The President's budget 
request for fiscal year 2020 upholds U.S. commitments to key partners 
and allies through strategic, selective investments that enable the 
United States to retain its position as a global leader; at the same 
time, it relies on other nations to make greater proportionate 
contributions toward shared objectives that support U.S. national 
security, promote U.S. prosperity and economic opportunities, and 
advance American interests and values around the world.
    We acknowledge that this budget request will not provide enough 
resources for us to meet every humanitarian need or seize every 
international development opportunity. USAID remains deeply committed 
to our core day-to-day work: helping support the world's most-
vulnerable populations affected by humanitarian crises; promoting human 
rights, democracy, and citizen-responsive governance; and improving 
development outcomes in the areas of economic growth, education, the 
environment, and health worldwide.
    Question. Why is this in our national security interest?
    Answer. The President's budget request for fiscal year 2020 aims to 
balance fiscal responsibility here at home with our leadership role and 
national-security imperatives on the world stage. The proposal for 
fiscal year 2020 prioritizes those countries and sectors most critical 
to U.S. interests, by providing resources to enhance maritime security; 
advance democracy, human rights, citizen-responsive governance, and the 
rule of law; promote private-sector competitiveness; improve health; 
support basic education; counter terrorism; address transnational 
crime, and maintain the United States' status as the preferred security 
and economic partner in the world.
    Question. For years, USAID has supported programs to help address 
the basic health, education, water and sanitation, and other needs of 
the Palestinian people in the West Bank. We have also supported 
humanitarian assistance to Palestinians in Gaza, through the U.N. 
Relief and Works Agency. This administration, in contrast, has cut off 
all assistance to the Palestinians.
    If the Palestinian Authority does not agree to whatever peace deal 
the White House puts forward, will USAID resume humanitarian and 
development assistance? If not, why not, and what impact will that have 
on the Palestinian people?
    Answer. In August 2018, the Administration concluded its review of 
Palestinian assistance. At the direction of the President, the U.S. 
Department of State and the U.S. Agency for International Development 
(USAID) re-directed more than $200 million in fiscal year 2017 Economic 
Support Funds originally planned for programs in the West Bank and Gaza 
to high-priority projects elsewhere.
    In December 2019, the Palestinian Authority requested that all 
activities implicated by the Anti-Terrorism Clarification Act (ATCA) in 
the West Bank and Gaza end by February 1, 2019. Accordingly, USAID 
ceased all ongoing programmatic activities by January 31, 2019, with 
the exception of grants to manage and mitigate conflict in Israel with 
Jewish and Arab participants.
    USAID defers to the White House on further questions concerning the 
peace plan, and the conditions under which United States assistance to 
the West Bank and Gaza would resume.
    Question. We are increasingly seeing infectious diseases spread 
from wildlife into human populations. Past Ebola outbreaks and the 
current one in the Democratic Republic of the Congo are examples.
    Scientists warn that the next big pandemic will likely be caused by 
a deadly pathogen transferred from animals to humans.
    USAID's Emerging Pandemic Threats program has led to many 
discoveries about the emergence and spread of human pathogens that 
originate in animals, but more needs to be done.
    What additional investments and capabilities are needed to reliably 
identify and mitigate potential pandemic threats in wildlife, before 
they infect humans, and how much is in the fiscal year 2020 budget 
request for this?
    Answer. The United States, in close cooperation with its 
international partners, prevents, detects, and responds to infectious-
disease threats at home and abroad, whether naturally occurring, 
unintentional, or deliberate. The Congressional Budget Justification 
for fiscal year 2020 includes a request of $90 million for the Global 
Health Security Agenda (GHSA). These funds would support the next phase 
of the GHSA, known as ``GHSA 2024,'' and would enable the U.S. 
Government, in partnership with other nations, international 
organizations, and public and private stakeholders, to prevent 
avoidable epidemics, detect threats early, and respond rapidly and 
effectively to disease outbreaks to prevent them from becoming global 
emergencies or even pandemics. Assistance from the U.S. Agency for 
International Development (USAID) would also strengthen systems and 
capacities across the animal- and human-health sectors needed to 
identify and address zoonotic diseases at the national, regional, and 
community levels; strengthen laboratory and surveillance capabilities 
to detect and characterize infectious-disease threats; improve risk-
communication programs; and strengthen the detection, surveillance, and 
control of pathogens resistant to anti-microbial.
    In the near future, the U.S. Government will launch its Global 
Health Security Strategy, which supports the President's Biodefense and 
National Security (NSS) Strategies, including the priority actions 
under the NSS of ``Detecting and Containing Biothreats at their 
Source'' and ``Improving Emergency Response.'' The Global Health 
Security Strategy describes how the United States will prevent, detect, 
and respond to infectious-disease threats globally and domestically, 
including by improving compliance with the International Health 
Regulations (2005) in developing countries.
    Question. It is difficult to think of anything that more directly 
affects people's health and quality of life than safe water and 
sanitation. Yet billions of people lack one or the other or both. In 
fiscal year 2019 we included $435 million for these purposes--which is 
not very much for the whole world--and the Administration is proposing 
to cut that to $165 million in fiscal year 2020, a cut of $270 million 
or 62 percent.
    Why so little for these programs?
    Answer. We thank Congress for its unwavering support for improving 
global water and sanitation through the Senator Paul Simon Water for 
the World Act of 2014 (the Act). The U.S. Agency for International 
Development (USAID) will continue to prioritize water and sanitation, 
in line which available resources, to implement the Agency's Water and 
Development Plan under the U.S. Global Water Strategy required by the 
Water for the World Act. The Plan seeks to help partner countries 
increase safe drinking water and sanitation for the underserved and 
most vulnerable, in alignment with U.S. national-security and foreign-
policy objectives.
    USAID intends its assistance in water and sanitation assistance to 
be catalytic in helping governments, civil society, and the private 
sector in our partner countries plan, finance, and deliver sustainable 
services for the neediest. Through our Water and Development Plan, we 
are working to strengthen systems for water and sanitation and leverage 
new financing for the sector. Consistent with the needs and opportunity 
criteria in the Act, and USAID's Water and Development Plan under the 
U.S. Global Water Strategy, the Agency is committed to focusing on 
countries and regions of greatest need, especially those where the 
opportunity to improve the lives of women and children is greatest, and 
to leveraging investments by partner governments, other bilateral and 
multilateral donors, and the private sector to maximize impact.
    Question. How can people escape poverty without safe water and 
sanitation?
    Answer. Reliable access to safe water, sanitation, and hygiene are 
essential to health, resilience, the empowerment of women and girls, 
and the escape from poverty. The Journey to Self-Reliance Country 
Roadmaps developed by the U.S. Agency for International Development 
(USAID) use an index of child health and access to water and sanitation 
as a leading metric for measuring the progress of our partner 
countries. These Roadmaps serve several purposes, including helping us 
to identify where each country is in its development journey and 
informing our strategic decisionmaking and allocations of resources. 
The inclusion in the Road Maps of metrics for water, sanitation, and 
hygiene (WASH) reflects USAID's overall commitment to the Water for the 
World Act and our investments in WASH to build health, resilience, and 
prosperity in our partner countries. The Roadmaps and the high-priority 
designation criteria in the Water for the World Act ensure we focus 
USAID's investments in places where they will have the greatest impact 
over the immediate and long term.
    Question. Your fiscal year 2020 request would cut funding for 
international family planning by more than 60 percent, to $237 million. 
According to information from organizations that do this work, based on 
achievements in fiscal year 2018 this cut of $370 million would have 
the following impacts:

  --15.4 million fewer women and couples would receive contraceptive 
        services and supplies;
  --There would be 4.6 million more unintended pregnancies, including 2 
        million more unplanned births;
  --There would be 1.9 million more abortions, the majority of which 
        would be provided in unsafe conditions; and
  --There would be nearly 9,000 more maternal deaths--deaths that could 
        otherwise have been prevented.

    We know that access to modern contraceptives dramatically reduces 
maternal and newborn deaths, as they enable women to space their 
pregnancies at least 3 years apart. Women are more likely to survive 
pregnancy and childbirth and their children are more than twice as 
likely to survive infancy.
    How does an administration that calls itself ``pro-life'' justify 
these budget cuts?
    Answer. As the world's largest bilateral donor to global health 
programs, the United States remains committed to helping women and 
their children thrive, and to investing our available resources 
effectively. Preventing child and maternal deaths and improving women's 
health are high priorities for the U.S. Agency for International 
Development (USAID), and we fund programs in dozens of countries 
focused on maternal and child health; nutrition; malaria; HIV/AIDS; 
tuberculosis and other infectious diseases; and voluntary, informed 
family planning. This effort has always relied upon partnerships with 
other donors and national governments, and its continued success 
depends on their sustained involvement, because the United States 
cannot fund every program indefinitely. Building self-reliance and 
self-sufficiency demands a greater level of domestic funding for 
voluntary family planning and activities to improve reproductive 
health.
    Question. For purely political reasons that have no factual basis, 
the administration is transferring $32.5 million we appropriated for 
UNFPA to USAID.
    In which countries and for what purposes are you using the fiscal 
year 2018 funds that were reprogrammed from UNFPA?
    Answer. The U.S. Agency for International Development (USAID) will 
invest the funds originally intended for the United Nations Population 
Fund in fiscal year 2018 for activities in voluntary family planning 
and maternal and reproductive health, as required by statute, and will 
submit the required Congressional Notification. These investments will 
contribute to the U.S. Government's commitment to increasing women's 
access to high-quality healthcare, and advance progress toward the 
Agency's priority goal under the USAID-State Department Joint Strategic 
Plan for fiscal year 2017-2022 of ending preventable maternal deaths.
    Question. In your testimony you say ``The United States stands with 
those who are yearning for a better life and a true democracy.'' You 
then go into detailed critiques of Venezuela and Cuba, and later on you 
talk of a ``backsliding of democracy . . . from Caracas to Phnom 
Penh.''
    Nobody here would defend the governments of those countries. But 
like others in this Administration, you ignore the world's most 
repressive governments whose leaders President Trump has praised, like 
Saudi Arabia, Russia, and Egypt.
    You say ``Rarely these days do authoritarian leaders oppose 
elections outright. Instead . . . they use sophisticated tools and 
methods to bend elections to ensure they can maintain their grip on 
power. Subverting civil society and independent media, manipulating 
vote tabulations, and other anti-democratic ploys.'' That sounds like 
Egypt and Honduras, doesn't it?
    Do you agree that if the U.S. is going to be taken seriously as a 
leader in defending democracy overseas, we need to be consistent?
    Answer. The ascent of authoritarianism and the rise of hostile non-
state actors have altered the strategic global landscape and increased 
the vulnerability of well-established democratic nations and emerging 
democracies alike. The People's Republic of China and the Russian 
Federation directly challenge an international order based on 
democratic norms, respect for human rights, and peace. The 
dictatorships in Iran and North Korea seek to increase their regional 
influence through coercion and aggression, export their illegal nuclear 
programs, and ssupport malign non-state actors. State-supported and 
independent cybercriminals attack the interests of the United States 
and its allies through theft, extortion, and malicious intrusions aimed 
at crippling infrastructure. The Kremlin conducts covert and overt 
campaigns to undermine core Western institutions and weaken faith in 
the democratic and free-market system; this malign influence and 
predatory behavior extends to the political, security, informational, 
energy, and economic spheres.
    The U.S. Agency for International Development (USAID) recognizes 
the importance of country-specific context in shaping a programmatic 
approach to address any nation's most- pressing democracy, rights, and 
governance challenges. Where countries are manipulating elections and 
subverting civil society and the independent media, USAID is funding 
programs that can shine a light on irregularities and abuse, provide 
greater transparency over the actions of malign actors, and offer 
protection for civil-society organizations and human-rights activists 
that face legal or physical danger for their efforts to expose 
wrongdoing or hold governments accountable.
    In recognition of the diverse global threats posed by China and 
Russia--as well as those posed by regional actors--USAID is also 
developing frameworks for countering authoritarian influence globally 
and safeguarding democratic systems. The goal is to have an approach we 
can apply consistently in nearly every country where USAID works to 
identify and address vulnerabilities to democratic institutions, 
processes, and norms that risk being exploited and undermined. The 
approach will also draw from recent evidence that reveals USAID's 
democracy assistance has the biggest return on investment in hybrid 
regimes where democratic systems are under threat and there are 
opportunities to restore and expand liberties. I look forward to 
sharing this framework with you and discussing how USAID is applying it 
across a variety of country contexts, including in some of our more 
complex bilateral partnerships.
    Question. Like it or not and regardless of what the White House may 
think causes it, climate change is happening. The Department of Defense 
considers it a national security threat. I would take it a step 
further: it is a global security threat.
    In fiscal year 2019, the Congress provided $179 million for 
renewable energy programs and $177 million for adaptation programs.
    How and where do you plan to spend those funds?
    Answer. Programs funded by the U.S. Agency for International 
Development (USAID) continue to help countries deal with the 
consequences of climatic shocks. The Department of State and USAID are 
in the process of developing funding allocations for fiscal year 2019, 
including for renewable-energy and climate-adaptation programs. The 
State Department and USAID take into account Congressional directives 
when proposing funding allocations, including information included in 
the Joint Explanatory Statement that accompanies the annual Department 
of State, Foreign Operations, and Related Programs Appropriations Act 
(SFOAA).
    We anticipate that the allocation and obligation of funds for 
renewable-energy and adaptation programs would build largely on 
existing programs supported with funds from fiscal year 2018.
    Climate-adaptation is a secondary objective in many of USAID's 
programs, in particular those in climate-sensitive sectors such as food 
and water security, disaster-risk reduction, and infrastructure.
    Question. How much is in your fiscal year 2020 budget for these 
purposes?
    Answer. The President did not propose funding specifically for 
climate-adaptation or renewable energy in his budget request for the 
U.S. Agency for International Development for fiscal year 2020. 
However, the budget request includes $201.966 million for modern energy 
services, which includes renewable energy and end-use energy-efficiency 
in its definition.
    Question. Your recent op-ed in Foreign Policy magazine describes 
how China's Belt and Road initiative threatens the ability of 
developing countries ``to achieve self-reliance''.
    You wrote that ``China does not support globally recognized 
sustainable and transparent lending practices'', and that China 
exchanges debt for access to a country's strategic assets--like farm 
land, minerals, railroads and ports.
    The administration points to the new Development Finance 
Corporation (DFC) as the way to counter China's influence, by promoting 
private sector investment consistent with international standards for 
transparency and financial sustainability.
    Is the DFC capable of offsetting the huge investments the Chinese 
are making to obtain access to foreign resources? If not, what is to 
prevent us from falling further and further behind?
    Answer. We refer you to the White House on the question regarding 
the new Development Finance Corporation (DFC) and the influence of the 
People's Republic of China.
    The U.S. Agency for International Development (USAID) has created a 
``Clear Choice'' Framework in which we show our partners, and potential 
partners, the difference in the approaches taken by the United States 
and China and other authoritarian countries.
    What the United States and our allies seek to do is to help 
countries move from being recipients of assistance, to partners, to 
fellow donors, a trajectory we at USAID call the Journey to Self-
Reliance. Chinese state-provided financing is large, but it is 
predatory, long-term obligations, very often unsustainable, that give 
China a strategic and often military advantage.
    The most important things we can do to oppose the Chinese model are 
to make that choice clear, and to have a presence in our partner 
countries. The governments and private sector in most developing 
countries will say behind closed doors that the United States is their 
preferred partner because of the vibrancy our system offers. We need to 
engage with them and provide them more flexible opportunities to work 
with our private sector.
    Question. We included $3.5 million in fiscal year 2019 for USAID's 
Advisor for Indigenous Peoples Issues, a position I established years 
ago. We also required USAID to post on its website--not later than 90 
days after enactment, which will be May 15th--the policy on indigenous 
peoples we asked for in fiscal year 2018.
    The goal of the policy is to ensure that USAID meets the highest 
standards for protecting the rights and addressing the needs of 
indigenous peoples, who are among the world's most vulnerable.
    Has the policy been finalized?
    Answer. The programs and practices of the U.S. Agency for 
International Development (USAID) should meet the highest standards for 
protecting the rights and addressing the needs of indigenous peoples. 
USAID is in the final stages of launching the Policy on Promoting the 
Rights of Indigenous Peoples (PRO-IP), which establishes a framework 
for engagement with indigenous peoples to ensure they are partners in 
the development process. USAID is providing safeguards to prevent any 
unintended impact on them from our programming.
    In late 2018, USAID undertook a significant revision of the draft 
Policy, and used the document for consultations with indigenous 
peoples, stakeholder non-governmental organizations, and U.S. 
Government Departments and Agencies. The Agency is now finalizing the 
draft for posting on the Agency's website during the Ssummer of 2019.
    We have used the $3.5 million included in the appropriations bill 
for fiscal year 2018 to support the Advisor for Indigenous Peoples 
Issues, to pilot programs to further the objective of protecting 
indigenous peoples, and to prepare guidelines and launch activities for 
the implementation of the new Policy.
                                 ______
                                 
          Questions Submitted by Senator Christopher A. Coons
    Question. What is the status of the USAID Transformation process?
    Answer. The Transformation is the global effort by the U.S. Agency 
for International Development (USAID) to position our processes, 
programs, workforce, and structure for the future, through 27 projects 
and 77 total deliverables.
    After several months of planning and project-development, led by 
teams of USAID employees, the Transformation has achieved several major 
deliverables, including a new Leadership Philosophy for the Agency; the 
Self-Reliance Metrics and Country Roadmaps; USAID's first-ever Private-
Sector Engagement Policy; the Agency's new Acquisition and Assistance 
Strategy; important improvements in our human-resources systems and 
policies; and changes in the policies for managing our awards. After 
the completion of a major deliverable, the respective Bureau or 
Independent Office within USAID assumes accountability for the 
continued implementation of the reforms.
    The most important piece of the Transformation is securing 
concurrence on the remaining Congressional Notifications (CNs) for the 
Agency's restructuring and limited legislative changes necessary to 
implement the restructuring, including the pilot Adaptive Personnel 
Project. As of today, April 30, 2019, Congress has cleared the 
following CNs related to the Transformation:

  --Reorganization CN #1: Bureau for Humanitarian Assistance;
  --Reorganization CN #2: Bureau for Resilience and Food Security;
  --Reorganization CN #3: Bureau for Conflict Prevention and 
        Stabilization; and
  --Reorganization CN #5: Bureau for Asia.

    Question. What action, if any, do you seek from Congress to fully 
implement the proposed reforms?
    Answer. The U.S. Agency for International Development (USAID) is 
seeking a statutory change to allow the use of Program funds to pilot a 
non-career, term-limited, and talent-based hiring mechanism (the 
Adaptive Personnel Project) that would provide the Agency with the 
flexibility and adaptability to hire staff to support ever-changing 
programs in global health and to respond to crises and humanitarian 
need.
    USAID is also seeking statutory changes to support our structural 
reforms. The first is to rename the Agency's two remaining Executive 
Scale Level IV Assistant Administrator positions as ``Associate 
Administrators,'' and to label all remaining Assistant Administrators 
without regional distinction in Section 5313-5315 of Title 5 of the 
United States Code. The second is an amendment to Public Law 105-277 of 
1998 to create the USAID Office of Security (SEC) as an Independent 
Office ``within the Office of the Administrator,'' as proposed in the 
Congressional Notification (CN) for the reorganization of USAID's 
Bureau for Management (M Bureau). Third, for the expanded M Bureau to 
function optimally, USAID is requesting authority to transfer funds 
into an Information-Technology Working Capital Fund (WCF), as 
envisioned by the Modernizing Government Technology Act of 2017, as 
well as the authority to establish an Acquisition and Assistance WCF to 
support the Agency's efforts in procurement reform.
    Following extensive consultations with Congress on our structural 
reforms, USAID transmitted nine Congressional Notifications to our 
Committees of jurisdiction that outline a series of proposed changes. 
USAID continues to work with these Committees to address several 
remaining holds.
    Question. How have the reforms impacted the fiscal year 2020 budget 
request?
    Answer. The President's budget request for fiscal year 2020 
advances and reflects the implementation of reforms across the U.S. 
Government, including a major structural reorganization of the U.S. 
Agency for International Development (USAID) to strengthen our core 
capabilities, increase efficiency, and reduce costs. USAID's structural 
reforms are foundational, and would create a field-focused, 
functionally aligned Washington operation that would empower our 
Missions to advance the Journey to Self-Reliance in our partner 
countries.
    The President's budget request would improve the ability of 
governments, civil society, and the private sector in our partner 
countries to marshal and manage their own development through the 
mobilization of domestic resources and improvements in fiscal 
transparency, the enabling environment for private investments, public 
financial management, and the creation and growth of capital markets.
    All of the reforms we have proposed will improve how we do our 
business. We look to leverage fiscal year 2020 resources through new 
approaches to private-sector engagement and more efficient, effective, 
and collaborative procurement practices.
    Question. How do you anticipate that these reforms will impact 
country, regional, and sector aid allocations in the coming years?
    Answer. The Policy Framework, Self-Reliance Metrics and Country 
Roadmaps, and other reform efforts at the U.S. Agency for International 
Development (USAID) have set new expectations for how we approach our 
development work. We are looking to make sectoral investments to 
reinforce governments, civil society, and the private sector in our 
partner countries on their Journey to Self-Reliance, and we are 
incorporating this approach in our sectoral strategies, many of which 
we are revising and updating now. We look to integrate new procurement 
practices, new approaches to engaging the private sector, and other 
core parts of the Agency's Transformation into all of our work. One 
such reform is building the annual budget request based on objective, 
data-driven analytics rooted in the Journey to Self-Reliance framework, 
including by accounting for how we are leveraging the private sector 
and aligning performance with budget. This has led to some changes in 
the President's budget request for fiscal year 2020, but will have even 
more impact as we complete new Country Development Cooperation 
Strategies for every Mission over the next 2 years.
                                 ______
                                 
             Question Submitted by Senator Chris Van Hollen
    Question. USAID Form 1420 requires contractor employees to provide 
their salary history for the last 3 years, which potentially raises 
concerns about perpetuating gender pay gaps.

  --How does USAID use the salary history information collected on Form 
        1420?
  --To what extent, if any, does salary history influence compensation 
        for personnel on USAID contracts?

    Answer. The market rate for a position should be the first factor 
to consider when setting a salary, supported by other considerations, 
such as an individual's suitability, qualifications, and experience. 
Given the potential for gender disparity in hiring and compensation 
based on salary history, I have approved revising Form 1420 on 
biographical data to eliminate salary history and replacing it with 
market value and supporting rationale for Personal Service Contractors 
and positions under cost-reimbursement contracts. The work stream on 
Effective Partnering and Procurement Reform under the Transformation of 
the U.S. Agency for International Development (USAID) has fast-tracked 
this action, to provide Contracting Officers (COs) with new tools and 
approaches, while also ensuring the Agency's standards are up-to-date, 
responsive, and flexible to emerging needs. The Agency will now pursue 
rule-making to revise the bio-data form and work through any public 
comments during that process. Even without the regulatory change, COs 
must ensure they do not penalize a qualified individual with a lower 
salary history by approving a lower salary/rate if the candidate meets 
all the requirements for a position.

                          SUBCOMMITTEE RECESS

    Senator Graham. The subcommittee stands in recess subject 
to call of the chair.
    [Whereupon, at 3:01 p.m., Tuesday, April 30, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

 
                                APPENDIX

                  Statement and Letter for the Record

                              ----------                              

      Prepared Statement of Inspector General Ann Calvaresi Barr4
           United States Agency for International Development

    USAID's Top Management Challenges and OIG's Continuing Oversight

April 30, 2019

Mr. Chairman, Ranking Member, and Members of the Subcommittee:

    Thank you for asking us to provide a statement for the record for 
the subcommittee's hearing on USAID's fiscal year 2020 budget. USAID 
manages nearly $30 billion in budgetary resources to expand economic 
growth, create markets and trade partners for the United States, and 
promote stable and free societies. In addition to promoting good will 
abroad, these investments help advance U.S. national security 
interests. USAID's programs provide humanitarian aid to people in 
countries recovering from natural disaster and periods of armed 
conflict, as well as assistance in combating the spread of disease and 
addressing food insecurity, child and maternal mortality, illiteracy, 
and gender inequality.
    Coordinating and implementing foreign assistance is inherently 
complex, particularly in countries and regions characterized by 
conflict, government instability, or natural disaster. The inhospitable 
environments USAID frequently works in create major challenges for the 
Agency in carrying out its mission. How well USAID identifies, 
assesses, and mitigates risk in delivering assistance programs is key 
to overcoming these challenges and to the programs' effectiveness. 
While adapting to the myriad of country contexts requires flexibility, 
it cannot eclipse the rigor and safeguards that are needed to protect 
USAID programs and funds and provide beneficiaries the assistance they 
desperately need.
    To help ensure that the U.S. Government achieves maximum return on 
these investments and achieves its foreign assistance goals, OIG 
provides independent oversight of USAID.\1\ As part of this oversight, 
the Reports Consolidation Act of 2000 (Public Law 106-531) requires 
USAID to include in its performance and accountability report a 
statement by the Inspector General summarizing the most daunting 
challenges the Agency faces and the progress made in managing them.
---------------------------------------------------------------------------
    \1\ OIG also provides oversight of the Millennium Challenge 
Corporation, U.S. African Development Foundation, Inter-American 
Foundation, and Overseas Private Investment Corporation. In addition, 
OIG provides oversight of overseas contingency operations as part of 
the lead inspector general framework established in section 8L of the 
Inspector General Act, as amended.
---------------------------------------------------------------------------
    Drawing on our recent audits and investigations, we identified four 
top management challenges that need USAID's attention now and likely 
into the foreseeable future. This statement for the record summarizes 
these challenges--some of which are longstanding--from our ``Fiscal 
Year 2019 Top Management Challenges'' report.
                                summary
    The first major management challenge concerns USAID's efforts to 
assess and mitigate the risks in providing humanitarian and 
stabilization assistance--particularly in nonpermissive areas, those 
affected by conflict or natural disaster. Deficiencies in this area 
create opportunities for those who seek to exploit vulnerabilities. 
USAID's limitations in mitigating implementer risks have contributed to 
the complex corruption schemes we uncovered in Iraq and Syria, and 
across Africa. This challenge is rooted in the Agency's lack of 
effective planning, monitoring, and evaluation to counter corruption 
and the threat of foreign assistance diversions to terrorists.
    The second challenge concerns the need for more robust analyses of 
country capacity and financial backing to build on U.S. investments in 
international development. Promoting sustainability and ending the need 
for foreign assistance is central to USAID's mission. However, USAID's 
upfront analyses of multimillion dollar projects were insufficient to 
determine a country's ability to strengthen local skills and secure 
public- or private-sector commitment to continue development activities 
and services after U.S. involvement ends. This was the case with 
USAID's HIV/AIDS prevention and treatment project in Cambodia when a 
key donor abruptly decreased its funding soon after the project was 
launched. The sustainability of USAID's West Bank and Gaza Conflict 
Mitigation and Management Program has also been called into question. 
USAID has yet to evaluate the program--which has been ongoing since 
2004 with more than 100 grants awarded to local and international 
organizations--to determine long-term impact and improve the 
effectiveness of future grants. Again, insufficient planning, 
monitoring, and evaluation are at the root of these vulnerabilities.
    Reconciling distinct interagency priorities and functions to 
advance U.S. foreign assistance is the third major challenge facing 
USAID. Our oversight of USAID activities related to the Ebola response 
in West Africa, sustainable energy in Haiti, and other foreign 
assistance efforts continues to show that competing priorities, 
different policies and procedures, and additional layers of review--
particularly with the Department of State--complicate and impede 
multiagency response and development activities. Our work validated 
gaps in the delivery of foreign and humanitarian assistance in West 
Africa, Latin America and the Caribbean, and fragile states worldwide.
    The fourth challenge concerns vulnerabilities in USAID's financial 
and information management systems. USAID's ability to carry out its 
mission and ensure effective stewardship of Federal funds depends on 
the integrity and reliability of these systems. Despite noteworthy 
actions to improve its systems, USAID continues to grapple with meeting 
stringent Federal financial and information management requirements for 
promoting transparency and accountability. Specifically, USAID has been 
unable to reconcile its intragovernmental transactions and differences 
between its general ledger and Treasury's; manage its awards to 
implementers, which total approximately $17.6 billion annually; and 
fully comply with Federal Information Technology Acquisition Reform Act 
requirements.
  managing risks inherent to providing humanitarian and stabilization 
                               assistance
    In December 2018, the United Nations estimated that $21.9 billion 
would be needed to assist 131.7 million people in 42 countries affected 
by natural disasters and conflict. USAID reports expending an average 
of approximately $2.6 billion on humanitarian and stabilization 
assistance annually.\2\ Public health crises and extremist group 
activities further exacerbate the need for humanitarian and 
stabilization assistance worldwide.
---------------------------------------------------------------------------
    \2\ For fiscal years 2013 through 2017 as reported in USAID's 
agency financial reports.
---------------------------------------------------------------------------
    To procure and distribute relief supplies in these volatile 
environments, USAID must balance efforts to deliver assistance--which 
frequently entail working with nongovernmental organizations (NGO), 
contractors, and public international organizations (PIO),\3\ while 
coordinating with multiple U.S. Government agencies and international 
donors--with safeguards to ensure assistance does not adversely affect 
local markets or fall prey to corruption.
---------------------------------------------------------------------------
    \3\ PIOs include U.N. organizations or international finance 
organizations, and are subject to fewer Federal restrictions than other 
types of implementers.
---------------------------------------------------------------------------
    Fraud, waste, and abuse in these settings are acute, and managing 
these risks has been a longstanding challenge for USAID--especially 
when short-term humanitarian responses evolve into a protracted 
presence, as in Syria, Iraq, and Somalia. While USAID evaluates 
operational context and implementer capacity to determine whether the 
risk of inaction outweighs the risk of providing assistance, our 
investigations and audits continue to expose weaknesses in USAID 
planning and monitoring that create opportunities for bad actors to 
exploit vulnerabilities, as described below.
    Overseeing PIOs. PIOs help implement U.S. humanitarian responses in 
nonpermissive environments. However, USAID has been challenged in 
overseeing these organizations. As we reported in September 2018, USAID 
did not align its PIO policies and processes with Federal internal 
control standards or develop clear documented standards for properly 
vetting, managing, and overseeing PIOs. In addition, USAID lacked 
sufficient policies and processes for identifying, assessing, and 
managing PIO risks. Instead, USAID relied on PIOs to assess and manage 
their risks. USAID's awards to PIOs working in Syria and Iraq--which 
now span more than 6 years and total $2.6 billion--are particularly 
vulnerable to fraud, waste, and abuse because the awards had not been 
designed with internal control standards appropriate for the context.
    Responding to Public Health Crises of International Concern. The 
2014 Ebola epidemic in West Africa was one of the deadliest infectious 
disease outbreaks in modern history. USAID led the response by the 
United States, which appropriated around $5.4 billion and was the 
largest international donor. USAID's strategy provided needed 
flexibility to adapt to changing circumstances, including evolution of 
the disease. However, a lack of policies for a whole-of-Government 
approach, delays in obtaining emergency funding, and other factors 
complicated the response. Insufficient needs assessments, frequent 
staff turnover, and weak handover procedures for rotating response 
teams further undermined USAID's efforts. One official said USAID 
operated with too few people to follow the money and determine whether 
support was reaching targeted beneficiaries. Ultimately, USAID procured 
$4.6 million in excess medical supplies, and most USAID-funded 
treatment centers and care units opened after the majority of Ebola 
cases had already occurred; as a result, some centers and units never 
saw patients.
    Identifying and Curbing Fraud and Corruption in Nonpermissive 
Environments. Nonpermissive environments are especially vulnerable to 
individuals intent on stealing U.S. funds and goods, depriving 
beneficiaries of assistance in insecure countries such as Iraq and 
Syria. A $150 million pledge that the United States made in July 2017 
to help Iraqis return to communities freed from Islamic State of Iraq 
and Syria (ISIS) occupation was placed on hold because of fraud 
allegations. Following a joint investigation, USAID and the United 
Nations Development Programme agreed to additional funding requirements 
that call for stronger internal controls, expanded monitoring of 
project activities, controlled sharing of contract details, enhanced 
fraud prevention training, and a full-time, Iraq-focused investigator.
    USAID's cross-border relief programs for internally displaced 
Syrians have been similarly exploited, reducing the quality of 
humanitarian assistance provided to refugees. One individual with close 
ties to host-country officials manipulated tenders to companies he was 
affiliated with for personal profit. In another case, a USAID 
implementer manipulated procurements in favor of vendors that offered 
bribes and kickbacks, shortchanged deliveries, and substituted products 
in USAID-funded supply kits with items of lesser quality. A separate 
incident exposed a ring of Turkish vendors that colluded with staff 
from four USAID implementers. USAID has taken action to improve award 
management, program oversight, internal processes, and fraud 
prevention; however, our ongoing investigations continue to 
substantiate allegations of fraud and mismanagement.
    Preventing Support to Terrorists. Enhanced vigilance is critical to 
ensuring U.S. foreign assistance does not support groups designated as 
foreign terrorist organizations.\4\ The risks inherent to providing 
assistance can be exacerbated in states with weak democratic systems 
and accountability where these groups operate, often with great 
influence over the communities that USAID assists.
---------------------------------------------------------------------------
    \4\ Designated as such by Executive Order 13224, the Specially 
Designated Nationals and Blocked Persons List published by the Office 
of Foreign Assets Control, or the Department of State's State Sponsors 
of Terrorism List.
---------------------------------------------------------------------------
    Insufficient monitoring and oversight have allowed terrorist groups 
to divert assistance from intended beneficiaries. For example, under 
the threat of Hay'at Tahrir al-Sham (HTS)--a designated terrorist group 
operating in northern Syria--an NGO's employees knowingly diverted 
thousands of USAID-funded food kits worth millions of dollars to 
ineligible beneficiaries (including HTS fighters) and submitted 
falsified beneficiary lists. A USAID third-party monitor reported the 
diversion, and our investigation resulted in USAID suspending the 
program and the NGO terminating dozens of employees. Another OIG 
investigation found that implementer staff were affiliated with or 
sympathetic to known terrorist groups in northwest Syria. The NGO 
ultimately suspended portions of its program to reverify the identities 
of all of its beneficiaries, adapted its program to the changing risk 
environment, and terminated or asked for the resignation of a number of 
employees.
    While USAID requires its award applicants to disclose any prior 
material support provided to terrorist entities and verifies that 
contractors are not blocked from receiving USAID funds, implementers 
have falsely certified that they have not materially supported blocked 
entities. Further, USAID's requirement to disclose past material 
support to terrorist organizations concerns only implementers applying 
for assistance awards, not contracts. We notified USAID of these 
vulnerabilities--which particularly affect high-risk programs in 
Afghanistan, Iraq, Syria, and similar nonpermissive environments--and 
understand the Agency is working on corrective action.
    Detecting and Reporting Sexual Exploitation and Abuse (SEA). On 
learning in February 2018 that an NGO had covered up claims of SEA 
violations in Haiti following the country's catastrophic 2010 
earthquake, we sent a memorandum to the USAID Administrator 
highlighting vulnerabilities in USAID's SEA-related reporting 
requirements for implementers. Our March 2018 memorandum noted that, 
under Agency policy for awardees and subawardees, the standard for 
reporting SEA allegations to USAID and OIG was limited to complaints of 
human trafficking or procurement of commercial sex. Even in cases of 
trafficking and commercial sex, implementers were given the discretion 
to report only allegations that they deemed credible--a threshold that 
may be too high and delay independent and prompt assessments and 
responses by USAID and OIG.
    USAID has taken action to address some risks we identified. For 
example, USAID has included special conditions in some awards and 
revised its policy for agreements with PIOs to improve its oversight of 
these organizations. Further, after the Haiti SEA incident was exposed, 
the USAID Administrator reaffirmed the Agency's zero tolerance for 
sexual misconduct, exploitation, or abuse of any kind--a message 
emphasized at the Administrator's March 2018 ``Forum on Preventing 
Sexual Misconduct.'' \5\ The Administrator also established the Action 
Alliance for Preventing Sexual Misconduct, joined by an OIG liaison, 
which worked with OIG in updating standard award provisions and 
establishing additional guidance clarifying that all forms of sexual 
misconduct that affect beneficiaries should be reported to USAID and 
OIG, not just those involving trafficking or commercial sex.
---------------------------------------------------------------------------
    \5\ The forum included the Inspector General and representatives 
from key implementers and U.N. agencies.
---------------------------------------------------------------------------
    We will continue to assess USAID's humanitarian assistance 
activities. For example, we are reviewing USAID's activities in Iraq as 
part of an ongoing audit. Another OIG audit is looking at USAID's 
oversight of selected implementers delivering humanitarian assistance 
in response to the Syrian crisis. We are also currently auditing 
USAID's response to crisis in West Africa--where years of conflict and 
escalating violence perpetuated by Boko Haram and ISIS have displaced 
an estimated 2.5 million people in the countries surrounding the Lake 
Chad Basin--in part to assess its actions to prevent terrorist 
organizations from obtaining USAID humanitarian funds.
 strengthening local capacity and improving planning and monitoring to 
           promote sustainability of u.s.-funded development
    The ultimate aim of U.S.-funded development is to end the need for 
foreign assistance. To support partner countries' journey to self-
reliance and better ensure that development is sustainable after U.S. 
involvement ends, USAID calls for investing in communities that have a 
stake in continuing activities and services; building the skills of 
local stakeholders; and promoting planning for sustainability, which 
could include public- or private-sector participation and financial 
backing.
    Best practices for achieving sustainable development encourage 
increased use of local systems to implement donor-funded programs.\6\ 
USAID initiatives reflect these principles, and in 2016, the Agency 
updated its policy on development programming with an emphasis on 
promoting local ownership. However, working with local partners and 
host-country governments with limited capacity, weak financial systems, 
and insufficient internal controls presents significant challenges for 
USAID.
---------------------------------------------------------------------------
    \6\ Best practices incorporate principles from the 2005 Paris 
Declaration on Aid Effectiveness, the 2008 Accra Agenda for Action, and 
the 2011 Busan Partnership for Effective Development Cooperation.
---------------------------------------------------------------------------
    USAID also continues to work to implement its planning, learning, 
monitoring, and evaluation cycle to (1) design programs that are 
supportable and complement larger strategies, (2) promote 
accountability, (3) adapt programs before they get off track, and (4) 
inform decisions about current and future programming. Our audits and 
investigations have repeatedly shown the consequences of operating 
without a fully implemented program cycle, especially on development 
programs that encourage self-reliance. For example:

  --A key assumption for the success of USAID's HIV/AIDS prevention and 
        treatment project in Cambodia was continued support from other 
        donors. However, soon after the project was launched in 
        November 2012, the Global Fund to Fight AIDS, Tuberculosis, and 
        Malaria abruptly decreased its funding, requiring the project 
        to substantially reduce the number of planned local centers for 
        excellence, undermining USAID's plans to strengthen local 
        organizations and minimize the need for external funding after 
        the project was implemented. At the same time, the project 
        lacked performance indicators to quantify progress in 
        implementing planned innovations, measure efforts to build 
        local capacity, ensure innovations' cost-effectiveness, or 
        inform decisions on expanding innovations to reach larger 
        populations.
  --USAID's Global Health Supply Chain-Procurement and Supply 
        Management Project--a $9.5 billion indefinite delivery, 
        indefinite quantity contract awarded to Chemonics International 
        in 2015--is intended to provide cost-effective health 
        commodities in more than 50 countries, as well as technical 
        assistance in supply chain management. However, since 2016 our 
        investigations and joint operations with local authorities have 
        revealed that host governments' warehousing and commodity 
        distribution systems are vulnerable to supply chain leakage, 
        creating the potential for large-scale, illicit resale of 
        USAID-funded commodities to private businesses and public 
        markets. These joint efforts have, as of March 2019, resulted 
        in 41 arrests and 30 indictments of subjects suspected of 
        selling stolen commodities on the black market.
  --USAID did not evaluate its West Bank and Gaza Conflict Mitigation 
        and Management Program-- ongoing since 2004 with more than 100 
        grants awarded to local and international organizations--to 
        determine long-term impact and improve the effectiveness of 
        future grants. The mission recently initiated an evaluation 
        that it expected to be completed in May 2019.
  --The Haitian Government delayed planned reforms considered key to 
        the success and sustainability of a USAID-funded project to 
        expand electricity generation in the country.
  --USAID/Pakistan did not reach an agreement with stakeholders on who 
        would operate and maintain Pakistan's $20.9 million Satpara 
        agricultural irrigation project after USAID's planned December 
        2018 withdrawal. The project called for Pakistan's Public Works 
        Department to manage the upgraded irrigation system, but with 
        no prior experience managing these types of systems, the 
        department did not plan to take over responsibility, and the 
        irrigation system has already shown signs of deterioration.
  --On the Gomal Zam Multipurpose Dam Project, USAID and Pakistan did 
        not implement a plan to maintain electricity generation or 
        restore power in the event that it failed. After the dam was 
        completed in June 2013 and handed over to the Pakistani 
        Government, Pakistani officials reported sporadic electricity 
        generation, and by October 2016, system failures and damages 
        had altogether shut down electricity generation, which has yet 
        to be fully restored.

    USAID has begun to address its multiple sustainability challenges. 
Notably, USAID began a strategic transition in 2018 that focuses on 
building country self-reliance using high-level metrics to identify 
strengths and weaknesses, help inform strategic decisions, and 
ultimately determine a country's level of commitment and capacity to be 
self-reliant. USAID has taken other steps too. For example:

  --To build local capacity, USAID established external partnerships 
        with the International Organization for Supreme Audit 
        Institutions and signed a memorandum of understanding with the 
        Government Accountability Office (GAO) in April 2016 to enhance 
        the oversight capabilities of audit organizations in developing 
        countries. The success of these partnerships will depend on how 
        USAID cultivates them.
  --To improve planning and monitoring--longstanding challenges cited 
        in our past Top Management Challenges reports--USAID updated 
        and added rigor to its policy for program design and management 
        in September 2016. Recognizing the need to build internal 
        capacity to fully implement the policy, USAID's Bureau for 
        Policy, Planning, and Learning developed new training, tools, 
        and technical assistance to support missions' program planning 
        and monitoring. As of August 2018, the Agency had trained more 
        than 3,000 staff in performance monitoring and evaluation, and 
        approximately 900 staff had completed courses in project 
        design. These actions should help address the Agency's planning 
        and monitoring challenges, but sustained management focus will 
        be required to ensure programs and projects are effectively 
        designed and meet performance expectations.
  --In addition, USAID included sustainability in its first Agency Risk 
        Profile \7\--approved by the Administrator in July 2017--and 
        developed a sustainability risk mitigation plan. Even with the 
        mitigation plan in place, Agency leadership recognizes that 
        regular monitoring of the plan through the enterprise risk 
        management (ERM) process may be needed. The Agency also 
        included risks related to planning and monitoring in the risk 
        profile and will continue to monitor and manage these risks 
        through its ERM process.
---------------------------------------------------------------------------
    \7\ The risk profile was developed in response to OMB Circular A-
123, which mandates that Federal agencies institute a comprehensive 
enterprise risk management system.

    We continue to monitor USAID's efforts to strengthen capacity and 
promote sustainability. For example, we recently issued a report on 
USAID's efforts to strengthen local capacity, enhance and promote 
country ownership, increase sustainability, and implement risk 
mitigation procedures. While USAID officials in operating units 
worldwide were optimistic about the positive impact of these efforts, 
the Agency lacked a means to determine whether it had achieved progress 
toward its goals. Our ongoing audits will examine issues related to 
sustainability in USAID's programs for democracy and governance and for 
global health supply chain management.
 reconciling interagency priorities and functions to more efficiently 
            and effectively advance u.s. foreign assistance
    Implementing foreign assistance programs, projects, and operations 
that involve multiple U.S. Government agencies has presented 
significant challenges for USAID in achieving its core mission. In 
particular, coordination with the Department of State--which makes 
policy and funding decisions for operations related to political and 
security crises--has complicated USAID's project planning and 
execution. Despite broad interagency guidance on the Department of 
State's role in politically sensitive environments, USAID employees are 
sometimes unclear on how best to manage additional layers of review, 
nimbly respond to changing priorities, address both U.S. diplomatic and 
development goals, and balance short- and long-term priorities.
    The joint USAID-Department of State reform effort conducted in 2017 
demonstrated the complexity in aligning complementary yet distinct 
missions and underscored USAID's persistent challenge in implementing 
programs, projects, and operations that involve other U.S. Government 
agencies.\8\ Our point-in-time review of the effort highlighted 
uncertainty about the joint reform's direction and end goals, and noted 
that disagreement and limited transparency on decisions related to the 
consolidation of functions and services led to questions about what the 
reform effort had achieved. USAID staff also voiced concerns related to 
the Agency's separate reform plan, including a lack of transparency and 
inclusivity in its development. Since then--amid leadership turnover at 
the State Department and ambiguity on the future of joint redesign 
efforts--USAID forged ahead with its independent transformation 
initiative. In August 2018, USAID outlined its proposed plans to 
Congress through nine congressional notifications--some of which have 
since been cleared.
---------------------------------------------------------------------------
    \8\ OMB Memorandum M-17-22 required executive branch agencies, 
including USAID and the Department of State, to submit reform plans and 
workforce plans to OMB by September 2017.
---------------------------------------------------------------------------
    The U.S. Government's Haiti reconstruction efforts and the 
international Ebola response foreshadowed USAID's joint reform 
challenges. USAID was largely responsible for implementing State 
Department commitments to the Haitian Government for post-earthquake 
reconstruction, including a project to provide sustainable electricity 
services. However, USAID/Haiti lacked the staff needed to plan for and 
monitor efforts to meet both the State Department's priority for 
generating reliable electricity for an industrial park and USAID's 
broader development goal to expand modern electricity service to 
Haitians. When State Department assumptions about the Haitian 
Government's appetite for energy sector reform and commercial demand 
for electricity did not materialize, USAID/Haiti had to shift its long-
term strategy for the power plant from government to private management 
and reduce its expansion goals. Ultimately, USAID's project did not 
meet its modernization and expansion goals, and the power plant will 
continue to rely on U.S. Government support until it can be transferred 
to another operator.
    The international response to the 2014 Ebola virus outbreak in West 
Africa, which called for an unprecedented level of coordination for 
USAID, also demonstrated interagency challenges that affected 
operational effectiveness. While USAID had previously responded to 
public health crises of international concern, it continued to operate 
without a policy framework to launch a rapid and coordinated response 
to the Ebola outbreak, and responders were left to re-create processes 
for controlling the virus.
    USAID has been responsive to our recommendations to improve 
interagency coordination. For example, USAID agreed to formalize its 
plan to conclude the Haiti power plant project and to address staffing 
concerns that undercut project monitoring and implementation. With 
regard to responding to public health emergencies of international 
concern, USAID reports that it is working with other U.S. agencies to 
identify and regularly test roles, capabilities, and responsibilities; 
agreed to direct the implementation of a strategy for communicating and 
coordinating with other responders; and committed to incorporating 
handover procedures for members of rotating response teams. In 
addition, USAID and the Centers for Disease Control and Prevention 
issued a joint statement to their staff encouraging work relationships 
that deepen teamwork and collaboration.
    To help reconcile their respective priorities, USAID and the State 
Department established in May 2018 the Stabilization Assistance Review 
(SAR), which provides guidelines and best practices to optimize U.S. 
foreign assistance and advance stabilization efforts in conflict-
affected areas. At the direction of the National Security Council, 
USAID and the Departments of State and Defense are working together to 
implement SAR recommendations and apply SAR in priority countries. 
While the agencies emphasized their commitment to institutionalize 
learning, evaluation, and accountability, closer coordination will 
require shifts in policies, process, and culture. As GAO reported in 
September 2018, U.S. agencies still needed to formally document their 
agreement, roles, and responsibilities to enhance coordination and 
reduce the potential for duplication, overlap, and fragmentation.\9\
---------------------------------------------------------------------------
    \9\ ``U.S. Agencies Have Coordinated Stabilization Efforts but Need 
to Document Their Agreement'' (GAO-18-654), September 27, 2018.
---------------------------------------------------------------------------
    According to USAID officials, the Agency and the State Department 
are also leading an interagency policy research initiative to inform 
U.S. assistance to fragile countries. Recommendations coming out of the 
initiative are expected to help coordinate assistance to advance 
prevention goals. Further, USAID encouraged staff to attend Department 
of State national security courses to build collaboration and knowledge 
across the interagency foreign affairs community. In August 2018, USAID 
announced an in-house course to train staff in techniques and best 
practices for interagency communication, policy development, and 
decisionmaking.
    USAID is also moving ahead on proposed structural changes announced 
in its August 2018 transformation initiative. Among these, USAID 
proposed a Bureau for Policy, Resources, and Performance that includes 
(1) an Office of Development Policy to advance USAID's development 
policy leadership and coherence and (2) an Office of Bilateral and 
Multilateral Engagement to set Agency policy and standards, identify 
best practices, support Agency engagement with donors, and identify and 
create needed functions for Agency-wide coordination and oversight of 
multilateral organizations.
    USAID's many actions have the potential to improve interagency 
coordination. However, fully implementing these actions will be an 
ongoing challenge for USAID, particularly in areas where the authority 
to act is outside its purview.
    We continue to monitor USAID's efforts to improve interagency 
coordination. For example, we recently issued a report on USAID's Power 
Africa initiative, which brought together diverse U.S. agencies to 
collaborate and share expertise on existing and new efforts in the 
energy sector while capitalizing on agencies' comparative advantages 
and minimizing duplication. However, by expanding rapidly--extending to 
all of sub-Saharan Africa and tripling its goals--Power Africa 
increased its exposure to various risks, and the USAID Coordinator's 
Office had not fully implemented a portfolio-wide program to manage the 
risks.
   addressing vulnerabilities in financial and information management
    Meeting the Federal Government's strict financial and information 
management requirements has been a governmentwide challenge. While 
USAID has made notable progress in addressing these requirements, it 
continues to work to reconcile its financial statements and strengthen 
its awards management.
    Reconciling Intragovernmental Transactions. To provide 
accountability and transparency in their transactions with one another, 
Federal agencies (referred to as ``trading partners'') must reconcile 
any accounting differences. These differences can occur if trading 
partners use different accounting periods or methodologies for 
classifying and reporting transactions. The Department of Treasury 
reported that as of September 30, 2017, USAID had $488 million in 
unreconciled transactions with its trading partners. According to 
Treasury's scorecard--used to track and rank each agency by its 
contribution to the Government's unreconciled differences--USAID was 
the 19th largest contributor (out of 140 agencies) at the end of June 
2018, with differences of $377 million. USAID's ongoing efforts to 
improve its reconciliation process and eliminate differences are likely 
to resolve timing differences. However, other differences, such as 
those caused by accounting errors, require additional attention.
    Reconciling the Fund Balance With Treasury Account. USAID's 
financial statements for fiscal years 2017 and 2016 had a material 
weakness related to the Agency's Fund Balance With Treasury (FBWT) 
reconciliations. A material weakness indicates that a material 
misstatement of the Agency's financial statements may not be prevented, 
or detected and corrected, on a timely basis. In the past, USAID did 
not reconcile its FBWT account with Treasury's fund balance each month, 
or promptly research and resolve any identified differences. Instead, 
USAID adjusted its FBWT account to agree with Treasury's fund balance. 
While USAID has made progress in reducing the unreconciled amount, 
large unreconciled differences with Treasury remain. As of September 
30, 2017, the net difference between USAID's general ledger and the 
amount in Treasury's records was approximately $214 million, of which 
$83 million was due to outstanding unreconciled items and $131 million 
was unexplained. This difference accumulated because of ongoing 
problems with a legacy system and data migration, and the continued 
lack of an integrated system to control reconciliations performed by 
USAID missions. USAID management continues to work to resolve this 
issue.
    Improving Award Management. Full and open competition is required 
when awarding U.S. Government contracts, except in unusual and 
compellingly urgent circumstances or when other qualified sources are 
lacking. For grants and cooperative agreements, USAID encourages 
competition to identify and fund programs that best achieve Agency 
objectives. Under certain circumstances, eligibility to bid may be 
restricted to a particular type of organization or other limitation, 
typically for sole-source awards, as long as a justification for using 
sole-source awards is fully documented and approved by appropriate 
authorities. However, a USAID contractor operating in Syria had not 
adequately documented justification for 36 of 41 sole-source subawards 
it made--leading us to question $5.6 million in costs. USAID's Office 
of Acquisition and Assistance agreed that documentation was lacking and 
that the Agency should have held the contractor accountable for 
complying with Agency policy. Although the Agency determined the 
questioned costs were not allowable, it did not plan to collect these 
costs from the contractor because USAID had approved the awards. The 
Agency cited factors-- primarily violence in the region--that prevented 
exploring other options for competition.
    In addition, we have made a total of 3,365 recommendations in more 
than 400 performance and financial audit reports issued over the past 
decade that concern implementer underperformance and inadequate awards 
management. USAID's reliance on awards to implement its programs around 
the world-- approximately $17.6 billion annually--demands effective 
awards management to hold implementers accountable for achieving 
program objectives.
    USAID's primary information technology challenge relates to 
complying with the Federal Information Technology Acquisition Reform 
Act (FITARA)--enacted in December 2014 to reform and streamline the 
U.S. Government's information technology acquisitions, including 
strengthening chief information officers' (CIO) accountability for 
their agencies' IT costs, schedules, performance, and security. USAID 
did not comply with several FITARA requirements, such as not having the 
CIO report directly to the Agency head and not providing the CIO 
adequate oversight and decision authority over budget execution 
activities related to the use of IT resources.
    We are following USAID's efforts to reconcile intragovernmental 
transactions through our annual audits of USAID's financial 
statements,\10\ as well as its progress in complying with FITARA 
requirements. We are also conducting an audit to assess the Agency's 
acquisition and assistance processes. Specifically, we are assessing 
how the Agency manages its awards to implementers, and its use of 
common management tools. In addition, we will be assessing USAID's 
stewardship of expired and canceled awards.
---------------------------------------------------------------------------
    \10\ The Chief Financial Officers Act of 1990, as amended by the 
Federal Financial Management Act of 1994 (Title IV of the Government 
Management Reform Act of 1994, Public Law 103-356), requires an audit 
of USAID's annual financial statements.
---------------------------------------------------------------------------
                        continued oig oversight
    In response to the subcommittee's request for a brief summary of 
our fiscal year 2020 budget request, we submit the following. For the 
past 2 years, Congress has provided funding beyond OIG's request. We 
appreciate Congress' recognition--through its directed oversight 
support and resources rendered through the appropriations process--of 
the value we bring to the effectiveness of foreign assistance and 
humanitarian assistance programs and to American taxpayers.
    Our fiscal year 2018 audit and investigative returns amounted to 
approximately eight times the cost of our operating budget. In addition 
to these financial returns, our recommendations have triggered 
foundational changes in policy and programming around global health and 
humanitarian assistance, agency procurements, and engagement with 
public international organizations. Your funding, coupled with our 
internal transformation and realignment efforts, has advanced the 
standing and impact of our work.
    To provide robust oversight of USAID and the other agencies we 
oversee, we requested $75.5 million for fiscal year 2020--$1.1 million 
less than we received in 2019, but $4 million or 5 percent more than 
that proposed in the President's budget.
    The additional 5 percent would enable us to meet our operational 
and staffing needs for identifying and reducing risks of fraud, waste, 
and abuse. Specifically, we would be able to continue to conduct 
performance audits and investigations needed to effect real change in 
foreign assistance, realize substantial recoveries and cost savings, 
and maintain maximum transparency and accountability.
    My office remains committed to ensuring that USAID and the other 
foreign assistance entities we oversee prudently use every dollar they 
receive. Your support, oversight, and engagement--along with our 
revised strategic approach to our work--are critical to carrying out 
our mission, especially in light of the high-risk and challenging 
environments that foreign assistance programs operate in. Thank you 
again for your support. We remain committed to meeting or exceeding 
your high expectations.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
